                                                   SENSITIVE BUT UNCLASSIFIED



                                             United States Department of State
                                          and the Broadcasting Board of Governors
                                                 Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                                  Inspection of
                                          Embassy Pretoria, South Africa,
                                             and Constituent Posts


                                             Report Number ISP-I-11-42A, June 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.


                                               i
                                  SENSITIVE BUT UNCLASSIFIED
                                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

This inspection was conducted in accordance with the Quality Standards for Inspection and
Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and Efficiency,
and the Inspector’s Handbook, as issued by the Office of Inspector General for the U.S.
Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                          PREFACE

       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


                                Table of Contents

Key Judgments                                             1
Context                                                   3
Executive Direction – Embassy Pretoria                    4
Policy and Program Implementation                         8
   President’s Emergency Plan for AIDS Relief             8
   Political and Economic Affairs                        12
   Public Diplomacy                                      15
   Consular Affairs                                      21
Resource Management                                      27
   Space Utilization and Workforce Planning              28
   General Management                                    31
   Financial Management                                  32
   Human Resources                                       33
   General Services Office                               34
   Facilities Management                                 41
   Information Management                                43
   Information Security                                  46
Regional Information Management Center                   47
Quality of Life                                          47
   Equal Employment Opportunity                          47
   Community Liaison Office                              48
   Health Unit                                           49
   Schools                                               50
Management Controls                                      51
   Consular Cash Collections                             51
   Advances for Representation                           52
   Separation of Duties                                  52
List of Recommendations                                  54
Informal Recommendations                                 59
Principal Officials                                      62
Abbreviations                                            64




                                        iii
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Key Judgments
 •   The Ambassador provides strong leadership to this large mission. He has focused on, and
     succeeded in, improving U.S. relations with the Republic of South Africa – the mission’s
     most important strategic goal.

 •   More than 25 percent of mission employees work full- or part-time on the President’s
     Emergency Plan for AIDS Relief (PEPFAR), and the program accounts for nearly all U.S.
     foreign assistance. Over the next 5 years many operations will be handed over to the South
     African Government. Current management structures and lines of authority are not equal to
     the task.

 •   Although Consulate General Durban enjoys strong leadership and has a vibrant public
     diplomacy program, its contributions are not critical to furthering U.S. interests in South
     Africa. The consulate should be significantly downsized or closed.

 •   The mission is beginning to take a critical look at whether Consulate General Johannesburg
     could be converted to an embassy annex. It has yet to determine whether a different
     alignment of personnel resources between Johannesburg and Pretoria would yield greater
     efficiencies.

 • (b) (5)


 •   Rapid growth has strained the mission’s ability to provide secure office space and housing
     in Pretoria while there is a surplus of office space in Consulate General Cape Town and
     underutilized space in Consulate General Johannesburg. The mission has done considerable
     work on a joint annex with the U. S. Agency for International Development (USAID) but
     does not have a comprehensive space utilization plan.

 •   The mission has done insufficient workforce planning to determine where position
     reductions should or could occur. The OIG team identified positions in the consular, public
     diplomacy, and political and economic sections for possible elimination.

 •   Pretoria employees cite housing as a negative morale issue, believing there are significant
     differences in housing quality. Security and rapid growth have led to more compound
     housing, in some cases of poor quality requiring extensive maintenance. The embassy has
     made some recent, positive, changes to the housing program but has done a poor job of
     managing housing expectations.

 •   The large, well-appointed information resource centers at the embassy and at the three
     constituent posts are not well used; in contrast, the two reading rooms in townships near
     Pretoria and Johannesburg have a large and steady clientele. Reduced hours at the
     information resource centers will enable staff to expand programming in venues more
     accessible to South African clientele.

                                         1
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


   •   The mission’s entire public affairs information unit is located in Pretoria rather than having
       some in Johannesburg where employees could interact more easily with the South African
       media as well as many pan-African and international correspondents located there.

   •   Mission South Africa’s three consular sections provide generally good customer service
       with minimal wait times. All three sections are generously staffed, and the OIG team
       identified several positions for elimination or consolidation.




The inspection took place in Washington, DC, between January 3 and 28, 2011; in Pretoria, South
Africa, between February 15 and 23, 2011, and between March 3 and 22, 2011; Cape Town, South
Africa, between February 22 and March 1, 2011; Durban, South Africa, between March 2 and 4,
2011; and Johannesburg, South Africa, between February 28 and March 10, 2011. (b) (6)




                                           2
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Context
        The Republic of South Africa has emerged as one of Africa’s most influential countries,
since the 1994 elections that brought Nelson Mandela and the African National Congress to power
and ended the apartheid era. It maintains important ties with the United States and other Western
industrialized nations, even as it continues to exert influence in the developing world and forge
new associations with China, India, and other emerging powers. Its economy is the largest in
Africa and its political influence in southern Africa unmatched. At home, it faces serious
challenges that include high rates of unemployment and violent crime, corruption, and an
ineffective education system. Some 17 percent of the country’s adult population is infected with
HIV/AIDS.

        The United States has a significant stake in seeing South Africa emerge as a prosperous,
multiracial democracy and has sought to assist it in a variety of ways. Diplomatic engagement
between the two countries has increased significantly since 2009, with an agenda that includes
security and nonproliferation, trade, transportation, climate change, and health. An important
indication of policy progress came in December 2010 with the first meeting of the U.S.–South
Africa Strategic Dialogue, among the broadest, high-level diplomatic exchanges held between the
two countries.

        The OIG inspection focused on Embassy Pretoria’s efforts to advance this agenda and to
manage the human and financial resources the United States has committed to this endeavor. The
inspection team paid particular attention to PEPFAR, the largest program of its kind in the world.
More than 25 percent of the mission works full- or part-time on this effort, which dominates U.S.
foreign assistance. In 2010, the PEPFAR budget for South Africa exceeded $550 million. Military
assistance totaled less than $1 million.

        Mission South Africa faces considerable management and personnel challenges. The
mission is the second largest in the Bureau of African Affairs in total staff, and the third largest in
terms of Department staffing, behind Nigeria and Kenya. With consulates general in Johannesburg,
Cape Town, and Durban, it is the only mission in Africa with three constituent posts. The
inspection team examined several aspects of the mission’s large footprint and rapid growth,
including space utilization and workforce planning, and whether adjustments are needed in the size
and function of the three consulates.

        At the time of the inspection, mission staff included 357 direct-hire Americans and 546
locally employed staff members. Twenty-eight offices from 12 independent agencies maintain a
presence at the mission, the largest being the Department, USAID, and the Centers for Disease
Control and Prevention (CDC). The mission’s operating budget is approximately $32 million per
year. Foreign assistance amounts to approximately $577 million.




                                            3
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction – Embassy Pretoria
Leadership

        The Ambassador and the country team have been central to what many believe is the
beginning of a significant, positive shift in U.S. relations with South Africa. Bilateral engagement
has expanded rapidly during the last 18 months, with an agenda that runs from trade to
nonproliferation. The principal vehicle for this engagement has been the U.S.–South Africa
Strategic Dialogue, which was agreed to in April 2010, and held its first ministerial meeting 8
months later. The Ambassador led the embassy’s successful efforts to create the dialogue structure
and stand up its many working groups. His excellent contacts with senior Washington officials and
his successful efforts to engage South African officials were key to establishing the dialogue.

       The Ambassador is a strong leader who has articulated his goals clearly through the
Mission Strategic and Resource Plan (MSRP) process and is moving his 12-agency mission
forward. He is active in important government and business circles; his energy and commitment
have earned him access and respect in the host community and high regard from mission staff
members.

        The deputy chief of mission (DCM) is an experienced Africa hand and former chief of
mission, whose principal role is as the mission’s chief operating officer. She led the mission as
chargé d’affaires for 7 months before the Ambassador’s arrival and then assisted him with the
transition to his first Department position. They work well together and are viewed by the staff as
sharing the same vision, despite employing very different leadership and management styles.
Under their leadership, embassy operations are marked by generally good interagency cooperation.
Agency heads actively participate in the weekly country team meetings and in the Ambassador’s
weekly senior staff meetings. Interagency efforts to promote trade and to provide law enforcement
assistance are particularly productive.

        Although the traditional division of labor – with the Ambassador focused on external
relations and the DCM handling internal operations – works well, the Ambassador has not
engaged sufficiently on broad, internal mission problems that have a negative effect on
productivity and morale.

        The DCM spends considerable time on PEPFAR program oversight, attending multiple
weekly and monthly meetings and interfacing frequently with the consuls general. She is credited
with the creation of a system of nine provincial liaisons who coordinate PEPFAR programs and
grants with provincial and local governments. The program is the embassy’s largest and is lacking
sufficient executive oversight. The Ambassador has communicated his goals for the program but
has not focused sufficiently on program management. As the program begins its transition from
direct emergency delivery of aid to technical assistance, the Ambassador’s increased engagement
would eliminate communication problems that have plagued the two primary agencies,
marginalized the PEPFAR coordinator, and prevented the executive office from ensuring that
major grants are consistent with program goals.



                                           4
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

      The mission will have a significant senior staff turnover in 2011, with the departure of the
DCM and the principal officers at all three consulates general. It will be essential for the
Ambassador to quickly establish his vision with the new staff members and integrate them into his
team.

Mission Strategic and Resource Plan

        Under the over-arching framework of reinvigorating the U.S.–South Africa bilateral
relationship, the MSRP prioritizes health as the mission’s number one goal, which reflects the
scale and importance of the largest PEPFAR program in the world, totaling $563 million in 2011.
The MSRP also calls for greater efforts in education and law enforcement, the second and third of
its eight goals. The full country team, including the consulates general, participated in the MSRP
formulation, and country team members understand and support the mission’s MSRP goals.

Operating Efficiencies

       A number of inefficient operating procedures require executive office attention, including
clearance processes, the quantity of internal meetings, and in-country travel. Streamlining these
processes would reduce the time pressure on existing staff and allow them to pursue more
productive endeavors.

        The clearance process for political and economic reporting is cumbersome and causes
significant delays in releasing reporting cables. The process is also demoralizing to reporting
officers, whose work frequently goes through as many as five editors. The inspection team saw
numerous examples of routine cables being delayed in clearance for a week, and often more. One
exasperated reporting officer told of six clearances being required for a routine, one-paragraph
product. Several steps could help streamline the process, including reducing clearances within the
sections, reducing the number of cables that require front office clearance, and reducing the
number of executive office clearances on cables that require front office review.

        Scrutiny of several other practices also could yield efficiencies. A review of individual
officer’s calendars suggested that many spend more than one hour a day attending internal
embassy meetings. Multiple officers from the same section often attend the same meetings. For
example, three officers from the political section and three from the executive office attended a
routine law enforcement working group meeting held during the inspection.

        Embassy and consulate personnel travel frequently and perhaps excessively among mission
offices. In 2010, for example, the mission spent $77,500 on travel between Pretoria and Cape
Town by International Cooperative Administrative Support Services (ICASS) program and public
diplomacy staff. The travel included extended visits by reporting officers and support staff, despite
the fact that two reporting officers and a full-time office management specialist are assigned
permanently to Consulate General Cape Town. The three consuls general travel to Pretoria
approximately once a month to attend senior staff meetings and have consultations; visits every
other month should be sufficient, given the availability and use of digital video conference (DVC)
equipment at all four posts. The executive office has not issued guidelines on internal travel.


                                            5
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

           Informal Recommendation 1: Embassy Pretoria should issue written guidelines for
           internal travel in order to eliminate unnecessary travel among mission offices.

Morale

         As might be expected in a mission of this size, morale is uneven. Among the issues
negatively affecting U.S. direct-hire morale, housing and the inability to resolve problems in a
timely and clear manner rank high. The Ambassador has done a good job of improving local staff
morale, in particular, which had suffered in recent years. His efforts have reinvigorated a local
employee committee that was defunct for some time, and he has met with the committee to hear
their concerns, most recently regarding a difficult tax issue that affects 70 percent of the mission’s
local staff. His outreach effort would benefit from walking around occasionally to visit employees
in their offices.

Entry-Level Program

       The mission’s program for first and second tour (FAST) officers consists primarily of a
monthly DVC, in which participants from all four posts hear a guest speaker’s presentation, and
occasional social events that are intended to serve as mentor-mentee engagement opportunities.
Although the embassy’s March 2009 policy notice outlining the program refers to reporting
opportunities, country team attendance, post exchanges, and other enriching experiences, the
responsibility for seeking out and arranging opportunities rests primarily with the almost 40 FAST
employees themselves. Some have had experiences outside of their normal portfolios but others
have not, and there is no systematic approach to ensure that they do. One FAST employee reported
that some supervisors are not supportive of the program, because it takes them away from their
busy desks. Another FAST employee was unsure who is in charge of the program.

        The DCM is not energizing the program consistently or ensuring that FAST employees are
rotated through the experiences outlined in the program. Some revisions to the policy would be
useful, including: allowing one FAST employee at every country team meeting, rather than at just
one meeting per month; holding the Ambassador’s check-in meetings and quarterly DCM
meetings, as provided for in the policy; and instructing supervisors to allow FAST officers to
participate in program activities to the maximum extent possible. Although all FAST employees
have an assigned mentor, the DCM does not hold mentors accountable for the frequency and
quality of their mentoring or ensure that FAST employees are given subject matter mentoring by
their supervisor or others in their functional areas.

Recommendation 1: Embassy Pretoria should update the mission’s first and second tour program
to include guidance for supervisors, more opportunities for first and second tour experiences
outside of normal work requirements, a checklist to ensure the participation of each first and
second tour employee in the opportunities, and greater oversight of mentoring efforts. (Action:
Embassy Pretoria)




                                            6
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Executive Direction – Consulate General Johannesburg

        Johannesburg’s consul general devotes much of his time to public outreach and has become
the public face of the U.S. Government in the Johannesburg district. He attends virtually all
American Chamber of Commerce events and meetings, speaks frequently at schools, interfaces
often with the press, and uses representation opportunities well. However, his leadership of the
staff has not been quite as successful as his outside endeavors.

        The consul general is an energetic manager who regularly visits U.S. and local staff in their
offices and encourages them to actively engage in the embassy working groups via DVC.
Nonetheless, morale among the 26 U.S. direct-hire employees is uneven, and several staff
commented that his communication style detracts from collegial decision-making and from their
overall job satisfaction. Morale among the 84 locally employed staff is generally higher, primarily
due to the consul general’s attention to their concerns.

        Consulate General Johannesburg is only 35 miles from the much larger embassy in
Pretoria. This proximity, coupled with the fact that officers from Pretoria venture regularly into
Johannesburg’s district to attend events, meet with contacts, and report on political and economic
developments, has given rise in the past to turf battles and competition for influence. The
incumbent consul general and his staff, however, support the activities of embassy personnel
across agency lines. To keep Johannesburg on track with the embassy’s priorities, the consul
general travels to Pretoria for weekly senior staff meetings and participates by DVC in the political
and economic section meetings, as well as the weekly country team meeting.

Executive Direction – Consulate General Cape Town

        Cape Town’s consul general is well known for her community outreach successes, but she
has not provided strong leadership or management oversight within the consulate.

        The consul general focuses much effort and attention on community outreach. She has
established many contacts within the humanitarian and nongovernmental organization (NGO)
community throughout the large consular district and frequently participates in their activities.
Political outreach is also a focus for her, and her efforts have netted useful contacts for the mission,
including some in the ruling African National Congress party. She hosts successful representation
events.

        The consul general’s efforts within the consulate have been less positive. Her leadership
style has resulted in fragmentation of her team of 25 American employees, which has dampened
morale and lowered productivity. The consul general has not successfully communicated her
vision and direction, leaving some employees unaware of the role of the consulate general in the
mission. Her weak oversight of management operations allowed unresolved issues to fester,
damaging staff confidence in her problem-solving abilities.

        Morale among the 61 locally employed staff has improved as a result of the consul
general’s efforts to host town hall meetings and workshops, and to assist local staff with their
serious tax difficulties.

                                            7
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

        The consul general’s relationship with embassy principals has been adequate. She
participates in country team meetings via DVC and has frequent phone contact with the DCM and
others.

Executive Direction – Consulate General Durban

       The consul general in Durban has made multiple contributions to mission goals and has
forged a strong and productive team.

        The consul general has developed strong personal and professional relationships with
senior government officials and all political parties in Kwa-Zulu Natal, a province that is important
politically and economically and also is the epicenter of the HIV/AIDS epidemic in South Africa.
The consul general has paid special attention to improving coordination between U.S. and local
officials working on HIV/AIDS, and successfully pushed for the appointment of the first
provincial liaison in South Africa, to bring better order to the multimillion dollar U.S. investment
in PEPFAR. She has provided strong support for multiple public diplomacy initiatives, and
officials from the Foreign Commercial Service and the U.S. Trade and Development Agency laud
her work on behalf of their efforts to promote U.S. business.

        Within the consulate, the consul general has met the challenges of having many of the same
duties and responsibilities as the larger and better staffed consulates in Johannesburg and Cape
Town. She insisted on cross-training for the 7 American employees and 25 local employees. Her
efforts met with initial resistance, but proved prescient: when extended staffing gaps occurred, the
consulate was able to carry on normally. Morale is high and the consul general is well-respected;
both American and local employees described her as thoughtful, open, accessible, engaged, and
impartial. She has mentored a series of first-tour reporting officers, but the volume and depth of
reporting from Durban could be improved.

       The consul general’s relations with the embassy are excellent. She has succeeded in
obtaining needed support from the embassy. She participates fully in embassy meetings via DVC
and was a major contributor to the MSRP process.


Policy and Program Implementation
President’s Emergency Plan for AIDS Relief

        The OIG team identified significant management changes needed for PEPFAR to transition
successfully over the next 5 years from providing direct services to focusing on technical
assistance that will allow South Africa to assume greater ownership of the program. The PEPFAR
coordinator’s office is not providing sufficient leadership or oversight of the program, and
implementing agencies do not fully cooperate with the coordinator. Management practices and
lines of authority that were weak but adequate when PEPFAR’s emphasis was to provide
emergency care and treatment are not sufficient for the program’s new roles. It is important that
the Ambassador take a more active role in managing the program as it begins a significant
transition.

                                            8
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

        The PEPFAR program in South Africa is the largest in the world, and represents the largest
source of U.S. foreign assistance to the country. Funding in 2010 was $560 million; since 2003,
the United States has contributed more than $2.7 billion to address the country’s HIV/AIDS
epidemic, which continues to infect 17 percent of the adult population. Some 235 U.S. and local
staff members work full- or part-time on the program, more than about 25 percent of the mission’s
staff. More than 95 percent of PEPFAR funds go to USAID and CDC. The remainder is divided
among the Department, Peace Corps, the Department of Defense, and other offices in the
Department of Health and Human Services.

        More than 1 million South Africans with HIV/AIDS are kept alive through programs
carried out by PEPFAR partners or in coordination with the South African Government. U.S.
assistance has been crucial in reducing transmission of the disease from pregnant mothers to their
newborns, caring for 400,000 orphaned and vulnerable children, and inaugurating campaigns for
male circumcision and other measures to reduce the spread of the disease. With the Ambassador’s
encouragement, PEPFAR worked constructively with the South African Government to reduce the
cost of procuring medicines by more than 50 percent, an achievement that will result in
multimillion dollar savings.

       The early years of the program were marked by a contentious relationship with South
African health officials, many of whom disputed the need for such medical assistance. The
government now supports the program, but legacies remain. USAID and CDC developed
treatment, care, and prevention programs that relied on NGOs rather than the government. The
number of NGOs receiving PEPFAR funding remains high: 135 prime partners, and some 600
subpartners. Programs were established with limited input from government officials, and
communication remains inadequate.

        The program is now at a pivotal point. Under terms of a bilateral agreement signed in
December 2010, PEPFAR will transfer a number of operations to national and provincial health
authorities over the next 5 years. The agreement provides for increased coordination between
PEPFAR and the South African Government and shifts PEPFAR’s primary role to providing
technical and other assistance to the South African health system. Negotiations with the South
African Government have yet to begin on drafting a Partnership Framework Implementation Plan
that will spell out the scope and pace of this transition.

        The OIG team examined current PEPFAR management structures in light of the coming
transition to an operating environment that will see reduced budgets, involve more substantial
consultation with the South African Government, and require greater efforts to reduce duplication.

         The PEPFAR program receives weak executive oversight. The PEPFAR coordinator serves
primarily as a staff resource and does not effectively coordinate the activities of USAID and CDC.
The agencies, in turn, seek to bypass the coordinator. In one case, CDC and USAID staff members
were explicitly directed by their supervisors not to discuss their findings with the coordinator. The
Department’s Office of the Global Aids Coordinator in Washington is reexamining the terms of
reference for PEPFAR coordinators in the field, which is a potentially important step that could
clarify the coordinator’s role.



                                            9
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

         Lack of oversight and poor communication have taken a toll on important initiatives. For
example, USAID and CDC began two innovative programs in 2010 that have fallen short of
expectations because of ineffective oversight and direction. First, PEPFAR hired provincial
liaisons to educate officials about PEPFAR programs, gain an understanding of their priorities, and
facilitate their taking greater ownership of the programs. But provincial officials did not receive a
comprehensive briefing about the program from the coordinator’s office. Liaisons were not given
adequate information about PEPFAR programs and partners, and were unable to tell their contacts
how much PEPFAR was spending in a given province and for what programs. Better data
collection and dissemination are required. The provincial liaisons report to USAID and CDC.
Although they have a keen understanding of developments at the provincial level, neither the
PEPFAR coordinator nor the Ambassador has ever met with them as a group.

         Similarly, PEPFAR initiated a sound measure called alignment, which names a lead
facilities partner in each local district to facilitate communication. Unfortunately, USAID and
CDC in Pretoria chose the lead partners without consulting sufficiently with South African
officials. Local officials expressed dismay over this, and said the process had set back bilateral
dialogue rather than advanced it. The PEPFAR leadership’s communication with NGO partners on
the rationale for alignment was also weak.

        The PEPFAR transition will present public affairs challenges that will require strong
executive leadership. In recent years, the embassy’s public affairs office has successfully
publicized PEPFAR programs in print and broadcast media. Efforts to brand the program through
PEPFAR’s numerous partners have proven less successful. Public affairs challenges will increase,
as PEPFAR budgets fall and the nature of U.S. assistance changes. These changes in U.S.
assistance also will challenge the mission to counter any allegations that the United States is
abandoning South Africa.

        As PEPFAR pivots toward a new direction, the mission needs stronger leadership to
coordinate activities undertaken by USAID and CDC and maintain consistency with transition
goals; to engage South African authorities intensively at the national, provincial, and district level
with a single, coherent message; and to expand effective public diplomacy efforts. The
Ambassador is best positioned to provide this leadership and to empower the PEPFAR
coordinator.

Recommendation 2: Embassy Pretoria should establish a Partnership Framework
Implementation Plan committee, chaired by the Ambassador; articulate a common vision among
the President’s Emergency Plan for AIDS Relief agencies; issue and enforce clear guidelines on
how to implement that vision; and oversee subsequent negotiations with the South African
Government. (Action: Embassy Pretoria)

       Establishing this Ambassador-chaired committee and arriving at a clearer sense of the
program’s future in South Africa should help reduce widespread program duplication between
USAID and CDC. Both USAID and CDC fund and manage programs across the PEPFAR
spectrum, but they make little effort to specialize or capitalize on each agency’s core
competencies. The agencies, described by staff as “fiercely competitive,” have parallel offices
dealing with treatment, care, and prevention – a situation one official termed “wholly redundant.”
Each agency continues to add new staff, but no mechanism exists to determine whether existing
                                           10
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

staff might be shared, to obviate the need for new positions. Aside from the lack of executive
leadership, senior PEPFAR staff cited this duplication of efforts as the most serious obstacle to
efficient PEPFAR operations.

        Rivalry between the two agencies also has led to an inefficient allocation of resources. At
least one funding decision in 2010 was made by simply dividing additional funds in half between
the two agencies, rather than analyzing where the funds could be spent most effectively. This
decision precluded a potential squabble between the two agencies, but it did not serve the interests
of those for whom the program was intended.

        Employees indicated there is little coordination among partners funded by USAID and
partners funded by CDC. In some cases, two partners (with different funding sources) appear to be
doing similar work in the same geographic area. It is unclear which partner is performing most
efficiently and effectively, although efforts are underway to compile such information.

         Although there are exceptions, each agency tends to make major funding decisions with
neither full coordination with the other agency nor review by the PEPFAR coordinator. There is
little effort to ensure that CDC funding decisions, for example, do not duplicate similar USAID
efforts. Additional funding decisions are pending, but have not been subject to strategic review.

        This situation merits immediate attention, particularly given the Ambassador’s explicit
instruction to identify cost efficiencies.

Recommendation 3: Embassy Pretoria should require South Africa’s coordinator for the
President’s Emergency Plan for AIDS relief and representatives of the United States Agency for
International Development and the Centers for Disease Control and Prevention to prepare a joint
report for the Ambassador, identifying duplications in staffing and overlaps in programming
between the two agencies, outlining concrete steps to eliminate these inefficiencies, and indicating
cost savings that could be achieved by doing so. A member of the Ambassador’s staff should
participate in meetings related to this endeavor. (Action: Embassy Pretoria)

Recommendation 4: Embassy Pretoria should thoroughly review all major United States Agency
for International Development and the Centers for Disease Control and Prevention funding
decisions, to identify and eliminate any redundancy, and to determine that the decisions are
consistent with President’s Emergency Plan for AIDS Relief’s transition goals. (Action: Embassy
Pretoria)

        The mission has paid insufficient attention to monitoring the finances of PEPFAR partners.
USAID maintains a 17-person regional inspector general’s office in Pretoria that covers Eastern
and Southern Africa and devotes a majority of its time to PEPFAR performance audits. The office
gives less attention to financial audits. CDC does not maintain a similar auditing presence in
Pretoria; the single grants manager CDC had in Pretoria was withdrawn in 2010. A handful of
PEPFAR partners purportedly had faced early termination of their contracts, but none had been
formally dropped for waste, fraud, and mismanagement. A recent USAID review of the program’s
largest partner found no significant shortcomings, but more needs to be done to ensure that all
partners submit required annual audits, and agencies address deficiencies promptly and thoroughly.

                                           11
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Recommendation 5: Embassy Pretoria should require the President’s Emergency Plan for AIDS
Relief office to submit written reports to the Ambassador, outlining each agency’s methods for
uncovering waste and fraud among their prime partners and assessing whether these methods are
sufficient. (Action: Embassy Pretoria)

        The smallest portion of the PEPFAR program involves community grants, which normally
amount to $15,000 or less. Teams at the embassy and each of the three consulates oversee these
grants, which assist orphans and vulnerable children. Team members were familiar with funding
guidelines, vetted their recommendations properly, conducted pre-award and post-award site visits
whenever possible, and required recipients to prominently display logos indicating that the project
is funded by the United States. The program is well run and meets its objectives.

Other Interagency Programs

        The embassy has sound programs to promote trade and coordinate law enforcement efforts.
Seven law enforcement agencies maintain a presence in South Africa. The regional security officer
chairs a regular, unclassified working group that focuses on increasing law enforcement training
opportunities available to South African authorities. All agencies participate actively in the effort,
and coordinate their training (sometimes providing it jointly). The Bureau of International
Narcotics and Law Enforcement Affairs has provided funds to enable other agencies to provide
specialized training. On operational issues, law enforcement agencies say they do not face turf
battles; they share contacts and information effectively among themselves. There is no regular law
enforcement working group that focuses on operational coordination.

           Informal Recommendation 2: Embassy Pretoria should establish a law enforcement
           working group that focuses on operational issues and is chaired by the deputy chief of
           mission.

       Trade promotion agencies in South Africa include, in addition to the Department, the
Foreign Commercial Service, the Foreign Agricultural Service, and the United States Trade
Development Agency. The minister counselor for economics meets weekly with the heads of these
agencies to discuss ways to advance the President’s export initiative. The Ambassador is heavily
engaged in this endeavor. He meets frequently with U.S. and South African business executives
and with relevant government officials. He also hosts representational events to promote U.S.
business. Agency heads expressed satisfaction with the embassy’s support, and singled out
Consulate General Durban for providing valuable assistance.

Political and Economic Affairs

       The political and economic sections have played crucial roles in expanding diplomatic
dialogue with South Africa and implementing programs to support greater bilateral cooperation.
Reporting is ample. Some officers feel under pressure to accentuate the positive, and downplay
negative developments. The recent, unauthorized release of sensitive diplomatic cables by
Wikileaks has had a chilling effect on access to South African contacts.




                                           12
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Political Affairs

         The embassy’s political section is amply staffed with separate officers assigned to foreign
affairs, domestic political developments, and human rights. Two local political assistants report,
provide background, and assist with making local contacts. There is no need for additional staff.
The OIG team counseled the section chief on ways to make better use of existing staff in the
section.

        As part of expanded diplomatic engagement with South Africa, the section has effectively
supported law enforcement cooperation, political-military affairs, and a new bilateral dialogue on
security and nonproliferation. It also has actively engaged the South African Government on issues
before the United Nations, where South Africa has a 2-year seat on the Security Council. Emails
confirm frequent exchanges with Washington agencies on issues ranging from policy to logistics.
A decision by the Bureau of International Security and Nonproliferation to include embassy
political and economic officers in a group superior honor award is testament to the strong
relationship both sections have with Washington counterparts.

         The section’s reporting and analysis of foreign affairs and human rights is strong. Domestic
political reporting suffered when an experienced officer left the section in 2010 and was replaced
by an officer who had no Africa experience and did not receive regional affairs training prior to
arrival. The political minister counselor has mentored the new officer, and the amount and quality
of reporting has increased.

        The lack of political reporting from Consulate General Cape Town, the country’s
legislative capital, has been a continuing issue. A review of cable traffic from the consulate
confirmed that output was low; for 5 months of 2010, the consulate filed only one political cable
per month. The issue stems in part from differing guidance the political officer received from
Pretoria. The political section called repeatedly for more reporting, while the executive office
encouraged the officer to develop new contacts, which she did diligently and effectively and
reported on by email. A better understanding between the political section and the front office
would have prevented confusion over the officer’s reporting responsibilities.

        The political section and the economic section each have two Foreign Service office
management specialists; three of these four positions were filled at the time of the inspection. The
OIG team concluded that the embassy could eliminate one of these positions by adopting more
efficient office procedures, such as eliminating unnecessary filing, and sharing one office
management position between the two sections.

Recommendation 6: Embassy Pretoria should request, and the Office of the Director General
should approve, the elimination of Foreign Service office management position 10109002 in the
political section, and it should assign Foreign Service office management position 20160001 in the
economic section additional duties supporting the political section. (Action: Embassy Pretoria, in
coordination with DGHR)




                                           13
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Economic Affairs

        Like the political section, the economic section has played a key role in establishing and
supporting expanded diplomatic dialogue with South Africa. Economic and commercial agencies
in Washington were unanimous in their praise for the section’s support. They cited the minister
counselor repeatedly for her knowledge and responsiveness. Economic officers, supported by three
local staff members with extensive experience, maintain close contact with the American Chamber
of Commerce and other business organizations, as well as with government officials, think tanks,
and academics. They also work closely and effectively with trade agencies at the mission and with
the Department of Homeland Security. The newly arrived head of the Transportation Security
Agency said his counterpart in the section had played a key role assisting him with his new
responsibilities.

         The section’s reporting and analysis covers a broad range of issues. One product
consistently cited for excellence was a quarterly commentary on official South African economic
statistics that provided insights not available elsewhere. Washington analysts also cited as
particularly useful the labor reports by the economic officer assigned to Consulate General
Johannesburg and analyses by the economic officer assigned to Consulate General Cape Town.

       Officers in the section praised section management, although many suggested that the
minister counselor could delegate more responsibility and authority to them. Staffing is adequate.
As noted in the work force planning section of this report, two positions should be reviewed to
determine if they could be combined with other positions.

Reporting Balance

        Some Washington consumers described embassy reporting from 2010 as overly optimistic.
All cables with comments that have “attitude” require front office clearance, according to several
officers – a policy the embassy instituted after the front office took issue with a negative comment
in one report. A number of officers confirmed the impression that the front office wanted them to
accentuate positive aspects in their reporting. One noted an instance where the front office had
deleted a relevant but damaging fact from a cable.
       (b) (5)



                                             The inspection team did not find a systematic bias in
embassy reporting or inappropriate instructions about reporting. Nonetheless, a number of officers
expressed uncertainty about whether the Ambassador expects them to downplay negative
developments in their reporting.
            Informal Recommendation 3: Embassy Pretoria should issue written guidance
            outlining the executive office’s standards for balanced reporting.

WikiLeaks

       The unauthorized release of Department documents by WikiLeaks and the major media
coverage it engendered in late 2010 has had a chilling effect on the embassy’s ability to make and

                                          14
                              SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

maintain contacts in South Africa. Several South Africa cables were released, and the fallout has
left at least one key government contact refusing to meet with embassy officers. Others have
become skittish or withdrawn. One reporting officer told of meeting a new political contact, who
began the conversation: “This is not for a cable, is it?” As a result of the leaks, the political section
no longer includes the names of contacts who are not essential to context or credibility. The
embassy also has limited the number of cables it posts for wide distribution.

         The embassy has worked diligently to contain damage from Wikileaks. When the leaks
began in earnest in late 2010, the embassy’s political, economic, and public affairs sections
compiled a list of potentially compromised cables, and the persons named in them. The public
affairs staff contacted many of those persons, as Department guidance permitted. The section’s
excellent working relationship with the media has proven crucial to managing this issue.

        Embassy officers found initial Department guidance on the leaks to be slow and confusing,
particularly with regard to whether missions could contact people who were named in documents
that were likely to become public. The Department was also slow in compiling an accurate list of
the documents at risk. Guidelines that prohibited officers from reading leaked documents on
embassy computers hindered the embassy’s ability to stay abreast of events.

Public Diplomacy

        Mission Pretoria’s public affairs section (PAS) is the largest in sub-Saharan Africa. The
public affairs officer (PAO) manages a budget of over $8 million and oversees a staff of 14
American officers and 43 local employees countrywide. Since his arrival in late summer of 2010,
he has become a trusted senior advisor to the Ambassador. The PAO has taken advantage of the
Ambassador’s strong interest in public diplomacy to raise the section’s profile inside and outside
the embassy. PAS, including operations at the three consulates general, serves the U.S. mission
well and enjoys strong leadership, with a creative and dedicated staff who use their ample
resources well.

        The PAO in Pretoria has raised morale significantly among both American and local staff
countrywide, engaging them in serious discussions about operational and budget issues. He has
made welcome efforts to decentralize decision making and give constituent posts greater
autonomy. Leadership changes at PAS Johannesburg also have improved morale there. The
situation at PAS Cape Town is mixed, due largely to the management style of the PAO. PAS
Durban had no PAO at the time of inspection; Pretoria was assigning a series of public diplomacy
officers to fill the staffing gap.

        PAS South Africa is the “go-to” public diplomacy mission in Africa. The Department relies
on PAS South Africa to host regional conferences and training workshops, provide neighboring
embassies with technical and other support, and respond to last-minute requests for high-profile
exchange visitors. The Department also counts on PAS South Africa to develop innovative and
effective ways to “get out the message.” For example, when President Obama announced that he
would give a major address during his visit to Ghana, PAS partnered with a South African-based
telecommunications company to solicit messages to the President from African citizens. PAS
received over 200,000 messages that it then conveyed to the White House.

                                            15
                                SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

        PAS South Africa was also behind ConnectUS, the first U.S. Government mobile platform
designed and hosted overseas for a targeted audience. ConnectUS allows PAS South Africa,
working with in-country technology and media partners, to reach quickly broad audiences via any
one of the 4,500 makes and models of Internet-enabled mobile phones available in South Africa,
devices that are far more common—especially among young people—than home or office
computers. In 2010, PAS Pretoria also provided start-up funds to a local Internet news site to help
create a Web site dedicated to promoting freedom of the press in Africa. The site provides African
journalists an outlet to communicate stories that they could not publish safely in their home
countries.
Press and Media Operations

        Pretoria’s information officer (IO) is well respected inside and outside the mission. She
attends all of the Ambassador’s senior staff meetings, along with the PAO, to ensure that the IO is
aware of the embassy’s thinking on all issues.

        The IO leads a dedicated staff of one entry-level officer and seven local employees. They
produce a comprehensive daily media report, with input from PAS staff in the consulates. The
report is divided into topical areas; hyperlinks enable users to get the full text of articles in which
they are interested. A three-person audio-visual team provides regular on- and off-site support to
PAS and Embassy Pretoria offices, as well as occasional support to constituent posts and other
PAS offices in the region. PAS Pretoria’s information unit also manages the embassy Web site,
which is updated daily, has links to the Web sites of the three consulates general, and complies
with the Department’s privacy rules. Information unit employees also oversee the mission’s
popular social media sites, which include Face Book, Twitter, Flickr, MXit, and ConnectUS.

         The embassy’s use of Twitter is notable. The site, called @USEmbPretoria, now has nearly
5,500 followers. Its primary audience is reporters and editors, and it was designed as a news
aggregator for the region. The IO and her staff search for straight news stories from third parties
that reflect well on U.S. interests and then re-Tweet the articles, sometimes with embassy comment
to provide perspective. Through the embassy’s Twitter site, PAS helps shape the narrative on
issues important to the mission, the Department, and the U.S. Government. IO staff also use the
site to re-tweet favorable viewpoints from other Twitter users, to promote public diplomacy
programs and events, and to provide reporters with news tips and rapid for-the-record corrections
of misinformation in the media. The site has proved its worth. During the post-election crisis in the
Ivory Coast, for example, it linked its local, regional, and international followers to third- party
video showing soldiers killing women, becoming the #1 Twitter account in South Africa for 72
hours during the peak of the crisis. A Nairobi-based bureau chief for a major American television
network called @USEmbPretoria a “must-read service” for anyone who cares about Africa.

        The IO and her staff work in Pretoria, although most South African newspaper and
television operations are located in nearby Johannesburg. Historically, this anomalous situation has
resulted in friction between PAS officers in Pretoria and Johannesburg, with embassy IOs rightly
asserting their role as official spokespersons for the mission and Johannesburg staff legitimately
claiming they can work effectively to advance mission programs only if they have regular contact
with senior media officials in Johannesburg. The current IO makes regular media visits to


                                            16
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Johannesburg, often without informing her colleagues there, but insists they report to her any and
all of their contacts with Johannesburg media.

        One solution to this long-standing problem is to relocate some of the mission’s media
operations to Consulate General Johannesburg, a move that might streamline the information
operation, result in economies of scale, and alleviate overcrowding in the chancery in Pretoria.
Office space in Johannesburg can be reconfigured to accommodate additional staff. Most changes
would be made when incumbents depart, so no current U.S. direct-hire staff in the information unit
would have to change their residences, and future hires could be assigned to Johannesburg rather
than Pretoria. The country PAO, the IO in Pretoria, and the PAO in Johannesburg agree that such a
move is both feasible and desirable. The OIG team supports this approach.

Recommendation 7: Embassy Pretoria should move appropriate press and media staff from
Embassy Pretoria to Consulate General Johannesburg. (Action: Embassy Pretoria)

The Africa Media Hub

        The Africa Media Hub is run out of Embassy Pretoria. It is the newest of six regional
media hubs that report to the Department’s Office of International Media Engagement in the
Bureau of Public Affairs. Each hub has a specific focus, tied to the geographic region for which it
is responsible; all aim to promote accurate and positive coverage of U.S. foreign policy priorities
in international media. The African Media Hub is responsible for developing working relationships
with key African media outlets, arranging media interviews with U.S. Government officials in
Washington or in the region, and finding innovative ways to deliver policy messages that resonate
with African audiences. PAOs and press attaches at U.S. embassies in Africa reportedly see some
of the hub’s work as duplicative of or in competition with their own programs, but the Pretoria
hub’s director is trying to change this perception.

        Because both the hub and its director are new, the country PAO chose to have the hub
based at the embassy, where both he and the IO can provide support and guidance. If the next hub
director is more experienced or if the embassy moves parts of its media operations to
Johannesburg, it might be logical to move the hub to Johannesburg, where its personnel could
develop and sustain personal relationships with pan-African media more easily.

       Informal Recommendation 4: Embassy Pretoria, in coordination with the Bureau of
       Public Affairs and the Bureau of African Affairs, should do a cost-benefit analysis to
       determine whether the Africa Media Hub should move to Johannesburg.

Information Resource Centers and Innovative Extensions

        PAS South Africa maintains information resource centers (IRCs) in Pretoria and in the
three constituent posts. All four are directed by library science professionals who report to their
respective PAOs and to a Pretoria-based information resource officer. The IRCs in the constituent
posts are large, welcoming, and well-appointed; the one in Pretoria is less so, due to its unusual
architecture and the fact that a portion of its original space was turned over to another embassy
section that needed extra offices.

                                          17
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

        The IRCs provide reference and research services to mission staff and contacts in the
South African Government, universities, think-tanks, media, and civil society organizations. In
addition to their reference materials, all four IRCs have decent-sized collections of books and
magazines about the United States that patrons can borrow. Patrons can also make free use of the
IRC’s Internet-enabled computers.

        The IRCs do excellent work in serving specific clientele; for example, they readily provide
government ministries with information about U.S. laws or regulations. They are less successful,
however, serving the general public. During the inspection, the OIG team noted only one instance
where there were more than five members of the public using an IRC, although each can
accommodate 40 or more patrons at one time. On most occasions, there was no one in the IRC
except the IRC staff.

        There are several reasons for this situation. All IRCs are located within the embassy or the
consulates. Would-be patrons pass through security screening procedures that many of them
resent, a problem shared by IRCs worldwide. In South Africa, the problem is aggravated by the
location of the consulates themselves. In Cape Town, the new consulate is located far outside the
city, with no public transport available. The situation is similar in Johannesburg, where the
consulate is located in a wealthy suburb whose residents do not need the IRC, while those who
could use its resources find the IRC difficult to reach. In Durban, the IRC is located in the central
business district, which was an ideal location – until crime rates started increasing.

        IRC directors, however, are enjoying success in taking their products and services to the
public, rather than asking that patrons come to the IRCs. Johannesburg was the first to do so,
establishing a small library in YMCA offices in Soweto in 1976 and a stand-alone facility in a
Soweto community center in the mid-1980s. The facility, renamed the Rosa Parks Library in 2006,
primarily serves a student clientele. It has nearly 6,000 books, most focused on business and
entrepreneurship, a selection of periodicals, study carrels, and computer terminals with free
Internet access. The library also hosts regular film programs, and book and chess clubs. The OIG
team found the library filled with township students.

         Even more crowded was the Mae Jemison U.S. Science Reading Room, named in honor of
the first African-American female astronaut and located on the University of Pretoria campus in
Mamelodi township. The Mae Jemison center uses U.S. models to make science fun and accessible
to secondary school students and to provide resources to supplement those in local schools. Its
collection of more than 3,000 science-focused books and magazines draws students from high
schools in the township. IRC Pretoria personnel, along with the PAS youth outreach coordinator
and volunteers from the university, take turns staffing the center, tutoring students, and overseeing
the various clubs that meet there. In addition to its library, the center also features an exhibition
space equipped with scientific models and games, and an auditorium used to host films, lectures,
and DVCs.

        IRC directors in Durban and Cape Town also have conducted successful outreach
experiments. The Durban IRC provides township libraries with “block loans” of books from its
collection focusing on HIV/AIDS, business and entrepreneurship, and community policing and
crime prevention. Cape Town IRC staff members hold regular programs at the Cape Town Central
Library, which is always filled with patrons, and which boasts an American Corner.
                                           18
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


       The success of the Durban and Cape Town outreach programs, and the numbers at both the
Rosa Parks Library and the Mae Jemison U.S. Science Reading Room, attest to the value of taking
programs to target audiences, rather than waiting for patrons to come to the IRCs. IRC employees
acknowledge this fact, but limited staffing prevents them from expanding outreach efforts while
simultaneously keeping IRCs open 40 hours a week.

       Informal Recommendation 5: Embassy Pretoria should reduce the public operating hours
       of information resource centers at the embassy and the three constituent posts to allow IRC
       staff to expand programming at satellite centers and pursue new and more productive
       opportunities elsewhere.

Exchanges and Cultural Programming

        PAS South Africa has a large and vibrant cultural and exchanges program that focuses on
education, health, public safety, and the rule of law. All are goals in the MSRP and mirror
objectives of the South African Government, 50 percent of whose current cabinet members have
participated in U.S. Government exchange programs.

       The experienced cultural affairs officer and two deputies oversee all cultural and educational
exchange programs, which in FY 2010 included $5 million in academic exchanges and nearly $1.8
million in professional and cultural exchanges. One deputy handles Fulbright academic exchange
programs; the other manages citizen exchange programs, including the International Visitor
Leadership Program (IVLP), as well as the American Speakers program. A regional English
language officer, who reports directly to the country PAO, works closely with cultural section staff
and the mission’s education working group to support programs with an English language focus.

         Embassy Pretoria’s Fulbright program is the largest in sub-Saharan Africa, with an
FY 2010 base allocation of nearly $2 million. The largest component of the program is the South
African student program, which in FY 2010 saw 41 South African students studying for master’s
or doctoral degrees in the United States. A special subset of the program sends South African high
school and university teachers to the United States to obtain master’s degrees in teaching English
as a second or foreign language. Improving English language skills is a priority for the South
African Government, and PAS has increased its investments in the area substantially. One example
is the Access Microscholarship program, which provides 200 economically disadvantaged 14- to
18-year olds with two years of after-school English classes and intensive summer learning
activities, thereby making them more competitive for better jobs or for scholarship programs for
which English language fluency is a requirement.

        PAS staff in Pretoria and the consulates general build the American speaker and specialist
program around MSRP goals. U.S. experts address local audiences on issues like fighting gang-
based gun violence, empowering women, improving education, and developing more effective
strategies to combat HIV/AIDS. These topics are also the focus for the mission’s IVLP. PAS South
Africa concentrates 85 percent of its IVLP nominees in single-country projects, maintaining that
its IVLP dollars are better spent on programs designed around issues of greatest interest to the
mission.


                                          19
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Educational Advising

        There are three part-time educational advisers in South Africa. Although the current
country PAO wants to increase advising hours, in line with the MSRP goal of improving education
and educational opportunities, he is constrained by a finite budget. The advisers do not have
sufficient time to do serious outreach, especially outside their home cities; instead, they must work
to attract students to the periodic group advising sessions at the IRCs. In addition, not all the
advisers are equally well qualified.

       Informal Recommendation 6: Embassy Pretoria should prepare a plan to expand the work
       hours of educational advisers, so that it is ready to implement such an expansion when the
       budget allows.

       Informal Recommendation 7: Embassy Pretoria should review job descriptions and
       selection criteria for new educational advisers and provide them the necessary training.

       The full-time regional educational advising coordinator (REAC) is based at PAS
Johannesburg. She provides advice and assistance to educational advisers in 21 countries in eastern
and southern Africa. Advisers in South Africa are dissatisfied with the REAC’s responsiveness.
Also, because she does not share her travel schedule, they are uncertain where to find the REAC
when they need her assistance. The REAC does not attend consulate general staff meetings and
commonly works at home, rather than at the office. Working from home is problematic, because
the REAC does not have access to her official account and cannot email colleagues and contacts
when she is out of the office.

        The REAC’s work style contrasts sharply with that of the regional English language officer
and the information resource officer based in Pretoria. When they are not traveling, they work out
of the embassy and collaborate with PAS colleagues on projects in and for South Africa. The
REAC is officially employed by the Institute of International Education, under an arrangement that
is funded by the Department’s Bureau of Educational and Cultural Affairs. The REAC’s skills and
extensive marketing experience could benefit advising operations in South Africa, if she worked
more regularly out of her offices at PAS Johannesburg and more collaboratively with her advisers
in South Africa.

Recommendation 8: The Bureau of Educational and Cultural Affairs should review and, if
necessary, revise the work goals of the regional educational advising coordinator, share those with
public affairs officers in the region, and solicit regular feedback from them on how well the
requirements are being met. (Action ECA)

Grants Management

        PAS South Africa uses grants creatively to extend the reach of its programs, by providing
financial assistance to projects that support mission and public diplomacy goals. Until recently, all
grant requests, regardless of size, made by public diplomacy officers anywhere in South Africa had
to be approved and signed in Pretoria. The new country PAO is moving to allow public diplomacy
officers in the consulates general greater flexibility, providing them a yet-to-be-determined pot of
grant money, from which they can draw without consulting Pretoria. Constituent post PAOs
                                           20
                               SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

applaud the plan, noting that the change will allow them to take advantage of quick turnaround
opportunities. At present, however, not all public diplomacy officers who will sign grants have
taken the requisite training, and neither have the local staff who will ensure grantees meet terms
and conditions. Local employees at the consulates general rely on Embassy Pretoria to record and
track supporting documents and receipts for consulate grants, rather than keeping their own
records.

       Informal Recommendation 8: Embassy Pretoria should arrange for formal grants training
       for all public diplomacy officers and staff who are involved in signing or monitoring
       grants.

       Informal Recommendation 9: Embassy Pretoria should require public affairs officers and
       staff at the consulates general to maintain all documentation supporting the terms and
       conditions of grants signed at the consulates.

Consular Affairs

         The consulates general in Cape Town, Durban, and Johannesburg are generously staffed
and provide generally good customer service with minimum wait times. The embassy does not
provide consular services to the public. With the exception of the two consular managers at
Consulate General Johannesburg, which processes the largest volume of nonimmigrant visas and
all of the region’s immigrant visas, the U.S. direct-hire staff is new to either consular processing or
consular management. The OIG team identified inequities in locally employed staff grade levels,
some incidences of overstaffing and inefficiency, and occasional lapses in oversight and training.
The classified annex discusses steps that the consular management in Johannesburg has taken, in
light of the loss of several passports over an 18-month period.

Management and Staffing

         Demand for consular services in South Africa has remained relatively steady over the past
several years. Officer staffing appears appropriate, even if nonimmigrant visa applications return
to their pre-September 11, 2001, levels. Locally employed staff levels, however, are excessive in
some cases.

        In 2004, the OIG inspection team recommended the abolition of the Embassy Pretoria
consular associate position and one locally employed staff member. The Pretoria consular staff
provided services primarily for embassy employees and their dependents, as well as for a small
number of third-country diplomats who preferred to apply for nonimmigrant visas in Pretoria,
rather than travel 35 miles to Johannesburg. The embassy abolished the local staff position and
committed to eliminating the consular associate position upon the departure of the incumbent, but
it has not done so. The current consular associate provides good service to embassy personnel and
has assisted the Johannesburg consular section with accident or judicial assistance cases on
occasion, but there is no justification for funding this limited service. In other situations where the
embassy is only a few miles from a constituent post with a full-service consular section, either a
consular officer travels to the embassy periodically, or an embassy officer from another section
with a consular commission provides limited services for staff as needed.

                                            21
                                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Recommendation 9: Embassy Pretoria, in coordination with the Bureau of Consular Affairs,
should abolish the consular associate position upon the departure of the incumbent and make
alternative arrangements for the provision of notarial and passport services for embassy
employees. (Action: Embassy Pretoria, in coordination with CA)

        In FY 2009, based on historical workload and growth projections, the Bureau of Consular
Affairs approved a professional adjudication specialist position to assist the sole consular officer in
Durban. The anticipated workload growth never materialized, and one officer is sufficient to
provide consular services. There are enough consular commissioned officers working in other
functional areas to provide backup when required. The OIG team identified several file clean-up
projects that the consul and the adjudication specialist can work on in the coming few months, but
there is not enough work for two adjudicators in the long term.

Recommendation 10: The Bureau of Consular Affairs, in coordination with Embassy Pretoria,
should abolish the Durban professional adjudication specialist position upon the departure of the
incumbent. (Action: CA, in coordination with Embassy Pretoria)

         The Cape Town consular section has too many local employees dedicated to nonimmigrant
visa services and the attendant fraud issues. In 2008, the Bureau of Consular Affairs gave Cape
Town a new local staff position. At about the same time, consular management reassigned a
number of local staff tasks to a full-time, eligible, family member consular assistant. This decision
left the new local employee with little to do. When another experienced local staff member
returned from Iraq and resumed his earlier functions, three of the four local staff were left with
half-time jobs, at best.(b) (5)
                                                        Consular management already has taken steps
to reduce the consular assistant position in the visa unit to a half-time biometrics position, but even
with reassigning her work, the section will remain overstaffed. One of the visa clerks already has
announced plans to retire in FY 2012, giving management the opportunity to rationalize consular
staffing in the next few months.

Recommendation 11: Embassy Pretoria, upon the first resignation or retirement of a visa clerk in
the Cape Town consular section, should abolish one visa clerk position and reassign
responsibilities accordingly. (Action: Embassy Pretoria)

        Some of the overstaffing discussed above may result from a broader lack of attention over
the years to the personnel and supervisory structure of the three consular sections, particularly the
larger sections in Johannesburg and Cape Town. In the past, the senior consular officer in
Johannesburg also served as a regional consular officer, covering operations in several countries.
Five years ago, the Bureau of Consular Affairs established a separate regional consular officer
position and designated the consular section chief as the country coordinator for South African
consular operations. The country coordinator has the opportunity to review position descriptions
across the board, check that grade levels and work assignments are consistent countrywide, and
rectify any anomalies.

       In Johannesburg, management had not reviewed or updated the position description of the
supervisory local employee for 8 years, prior to the OIG team’s visit. During that time, various
supervisors had carved off some of that employee’s responsibilities, without considering how their
                                           22
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

decisions might alter her grade or affect institutional knowledge and supervisory structure. The
immigrant visa operation, in particular, has suffered through loss of expertise and lack of training.
Similarly, another experienced local staff member has been serving as primary cashier and an
American citizens services assistant for years. Even though she works at a high level of
responsibility as an American citizens services assistant, a job that in many other consular sections
warrants a higher grade level, the fact that she is a cashier more than 50 percent of her time
precludes her aspiring to a higher grade. The locally employed nonimmigrant visa employees may
be undergraded, as compared with the grade levels in other consular sections with comparable
workloads. Also, integrating the correspondence unit into the nonimmigrant processing contingent
may result in the savings of one local staff position.

         In Cape Town, although there are four local employees who provide basic nonimmigrant
visa services, their grade levels vary from FSN-06 to FSN-08. One employee at the FSN-07 level
essentially does nothing but print and quality-check visas. The current structure does not provide
adequate cross training, and the disparity in grade levels for similar work contributes to a lack of
job satisfaction. Although there is excess capacity in the nonimmigrant visa and fraud prevention
units, there is no well crafted plan for cross training visa clerks in American citizens services.

Recommendation 12: Embassy Pretoria should analyze long-term consular section goals and
objectives at Consulates General Johannesburg and Cape Town, review and update all of the
consular position descriptions in light of that analysis, and submit revised position descriptions for
Computer Assisted Job Evaluation reviews, as appropriate. (Action: Embassy Pretoria)

         Institutional memory in the Johannesburg immigrant visa and American citizens services
units is limited, because of the combination of entry-level line supervisors, the relative
inexperience of the immigrant visa local staff, and the recent serial resignations of American
citizens services assistants. Although the consular section chief has an open door policy, and the
staff is comfortable consulting him on complex cases, day-to-day operational oversight of those
two units and the fraud prevention unit falls primarily to a cadre of entry-level officers who spend
6 months at a time in those functional areas. During the inspection, the immigrant visa officer and
the local staff realized that they were managing DNA testing incorrectly and adjudicating returning
resident status improperly; although they rectified the processing problems, this situation could
have been avoided with closer senior officer training and oversight.

       In Cape Town, the consular section chief is similarly approachable, but she involves herself
in processing details only when asked to do so. The American citizens services local staff is
capable, but the sole local employee and the consular assistant have each spent only 3 years on the
job and still require time management guidance and close supervision on sensitive cases.

       The OIG team counseled both the Johannesburg and Cape Town consular section chiefs on
the need to provide hands-on supervision, including regular training sessions, for their relatively
inexperienced local employees. In response to this advice, the Cape Town section chief
reorganized local employee seating to facilitate closer oversight of the American citizens services
staff.




                                           23
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Process and Efficiency

        The OIG team identified two areas, in addition to the previously mentioned issues of DNA
testing and returning-resident processing, in which the South Africa consular sections are not
following Foreign Affairs Manual (FAM) guidelines. In 9 FAM 42.66 N2.2, the Bureau of
Consular Affairs recommends that embassies limit the number of panel physicians to one
physician per 2,000 applicants, and that the panel physician’s practice be located near the
immigrant visa processing operation to facilitate oversight. There are four authorized panel
physicians in South Africa, two of whom are located in the same medical building in
Johannesburg. Consulate General Johannesburg processes approximately 1,300 immigrant and
refugee cases per year, and Durban’s visa workload is low enough that it would be rare to refer a
nonimmigrant case to a panel physician. Consular management has been reluctant to reduce the
number of panel physicians, because it is more convenient to have a panel physician wherever
there is a visa operation.

Recommendation 13: Embassy Pretoria should reduce the number of its panel physicians to one
in Johannesburg and one in Cape Town. (Action: Embassy Pretoria)

        All three consular sections are storing a large number of Category I files, many dating back
20 years and taking up unnecessary storage space. According to 9 FAM Appendix F 101.1,
consular sections are required to scan all associated documents for Category I visa refusals into the
Consular Consolidated Database and ship paper files to the Kentucky Consular Center for further
disposition. In 2003, the Bureau of Consular Affairs instructed consular managers how to review,
cull, and scan or ship old Category I case files.

Recommendation 14: Embassy Pretoria should establish a process and a timeline for reviewing
and shipping the Category I holdings at all three consulates general to the Kentucky Consular
Center. (Action: Embassy Pretoria)

        Consular management rectified several inefficient practices during the inspection, but
several other improvements were still pending. The Bureau of Overseas Buildings Operations fire
marshal advised the consular section in Cape Town that the section needed to halve the number of
chairs in the waiting room. Because Cape Town schedules all of its public services in the mornings
and allocates visa appointments in 1-hour blocks, there is always a line of applicants at the
consular access gate and always pressure on waiting room seating. The reduction of available
seating will aggravate this situation.

           Informal Recommendation 10: Embassy Pretoria should schedule visa appointments
           for Consulate General Cape Town in 15- or 30-minute increments to prevent waiting
           room overcrowding.

        At the time of the inspection, Cape Town’s consular section had a 2-week wait for
nonimmigrant visa appointments but the section was closed to the public every Friday and there
were no afternoon visa interviews. There is no reason for Cape Town, with its underemployed visa
assistants and its adequate officer staff, to maintain an artificial appointment wait time or to limit
its public hours to the mornings. The new consular section chief introduced an appointment system
for American citizens services, which is a useful management tool, but the OIG team reminded the
                                           24
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

staff that they have ample time and resources on most days to handle requests for service, whether
or not the customer has an appointment.

           Informal Recommendation 11: Embassy Pretoria should schedule afternoon
           appointments, as needed, at Consulate General Cape Town and should accept walk-in
           requests for service, when practical.

        In order to maximize its limited waiting room space, the Johannesburg consular section
provides nonimmigrant visa services in the morning and immigrant visa and American citizen
services in the afternoon. As a result, the cashier takes fees until 4:00 p.m. This means that the
earliest the consular cashier can submit the day’s receipts to the Class B cashier is 4:30 p.m. The
Class B cashier has little time to prepare the OF-158s and secure the consular fees before the end
of her work day.

           Informal Recommendation 12: Embassy Pretoria should schedule the afternoon
           consular appointments at Consulate General Johannesburg so that the cashier can close
           at 3:30 p.m. and submit consular fees to the Class B cashier by 4:00 p.m.

Fraud Prevention Units and the Assistant Regional Security Officer-Investigations

        The consular sections in both Johannesburg and Cape Town have full-time local fraud
investigators reporting to part-time fraud prevention managers. In Johannesburg, the fraud
prevention manager is also the American citizens services officer and on her first consular tour,
and in Cape Town the second-tour visa officer supervises the fraud investigator. Even though the
incidence of fraud in South Africa is relatively low and the visa issuance rate is 95 percent or
higher, each local fraud investigator is assisted by a part-time backup. In Durban, a senior visa
assistant also fills the fraud investigator role.

        In all three consular sections, the fraud prevention unit’s emphasis is on suspect travel and
residence documents submitted in support of nonimmigrant visa applications by non-native
residents or citizens of South Africa. Each consular section occasionally confiscates and returns
suspect South African documents to the Department of Home Affairs. Johannesburg gives visa
applicants a letter to confirm that their passports are being sent to the Department of Home Affairs
and provides them a Home Affairs point of contact in order to pursue clarification of their status in
South Africa. Durban simply confiscates the passports and gives the applicant a verbal explanation
of their disposition. Not all sections maintain a list of all the passports that have been returned to
Home Affairs, and there is no mechanism for following up on these cases to determine whether the
passports were indeed obtained illegally. In short, all three consular sections invest significant time
and energy in fraud prevention efforts, without any feedback on their effectiveness.

           Informal Recommendation 13: Embassy Pretoria should standardize the letters given
           to visa applicants whose passports have been confiscated and returned to the
           Department of Home Affairs, and should maintain a database of all such cases.

           Informal Recommendation 14: Embassy Pretoria should establish a mechanism for
           obtaining timely feedback from the Department of Home Affairs regarding the
           disposition of suspect citizenship and residence documents.
                                           25
                               SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED



        Despite the low incidence of indigenous fraud in South Africa, both Johannesburg and
Cape Town have assistant regional security officers for investigations (ARSO-I). In each of the
consular sections, the ARSO-I works in an open bay cubicle. They have no privacy for phone
interviews or consultations with other staff. This lack of privacy means that they tend to do their
consular work in the regional security office, which detracts from their integration into the
consular section and their availability to the interviewing officers and local fraud investigators. In
each section, there is an option for enclosing an existing cubicle or constructing a semi-private
enclosure to give the ARSO-I appropriate work space.

Recommendation 15: Embassy Pretoria should relocate the Consulate Cape Town assistant
regional security officer for investigations to the vice consul’s office, until the consulate general
can construct an enclosed work space for the incumbent of that position. (Action: Embassy
Pretoria)

Recommendation 16: Embassy Pretoria should design and construct an enclosure for Consulate
General Johannesburg’s assistant regional security officer for investigations. (Action: Embassy
Pretoria)




                                            26
                                SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


  Resource Management
Agency                           U.S.       U.S. Local-   U.S. Local-   Total     Total Funding
                                Direct-      Hire Staff   Hire Staff    Staff       FY 2010
                               Hire Staff   (EFM/PSA)     (LE Staff)
State – Program                     74           10            48        132           $10,522,500
State – ICASS                       26           15           209        250           $19,658,200
State – Public Diplomacy            13             3           42         58            $3,900,900
State – Diplomatic Security         11             2           13         26            $7,334,100
State – Marine Security             25             1            6         32             $633,500
State – Representation                0            0            0          0             $162,100
State – OBO                           4            5            1         10            $9,196,900
State - ESC                         10             2            0         12     Not managed at post
State - Seabee                        2            0            0          2     Not managed at post
State - RIMC                        15             3            0         18     Not managed at post
State - PRDCH/Courier                 4            2            0          6     Not managed at post
Foreign Commercial Service            2            0           12         14            $1,309,500

DAO - Defense Attaché                 8           0             2         10              $549,300
Office
ODC - Office of Defense               3           0             4          7            $1,045,200
Cooperation
Pentagon Force Protection             2           0             0          2    Not managed at post
Agency
Foreign Agricultural Service          5           1             5         11              $559,600
Federal Bureau of                     2           1             0          3     Not managed at post
Investigation
Drug Enforcement Agency               4            0            0          4     Not managed at post
ICITAP                                1            1            0          2     Not managed at post
Health and Human Services            0             0            0          0           $19,540,000
  PEPFAR                              0            0            7          7             $960,000
  Office Support                      0            0            1          1             $130,000
  CDC                               17             0           64         81            $8,450,000
  FDA                                 2            1            0          3     Not managed at post
  Homeland Security                   0           0             0          0              $658,400
  CSI                                 0           0             0          0              $132,400
  CBP                                 5            0            1          6               $98,800
  ICE                                 7            0            2          9     Not managed at post
  CIS                                 1            0            1          2              $163,700
  TSA                                 1            0            1          2              $263,500
  USSS                                2            1            0          3     Not managed at post
USAID                               99             3          127        229     Not managed at post
IBB                                   1            0            0          1     Not managed at post
Open Source Center                    4            0            0          4     Not managed at post
Peace Corps                           6            0            0          6     Not managed at post
USTDA                                 1            0            0          1     Not managed at post
Totals                             357           51           546        954           $85,268,600



                                             27
                                 SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Space Utilization and Workforce Planning

        Mission South Africa’s staff has grown considerably, from 258 U.S. direct-hire and 521
locally employed staff positions in 2005 to 344 U.S. direct-hire and 546 locally employed staff in
March 2011. Embassy Pretoria added 40 positions in the past 2 years, which has strained embassy
resources in several key areas, including the ability to find secure and affordable housing and
reasonable office space. The growth has created overcrowded conditions at the chancery in
Pretoria, even while there is significant underutilized space at Consulate General Cape Town and,
to a lesser extent, at Consulate General Johannesburg. Staffing levels and space utilization are
significant management issues that require attention.

Mission Staffing

        The OIG team found a generously staffed mission and identified several positions that
merit review as part of a mission-wide analysis of staffing requirements. The OIG team’s effort
focused on identifying American and local positions the mission could eliminate while maintaining
sufficient staffing to support mission goals. Senior mission management has not focused on
whether staffing is aligned with MSRP goals or whether comparable work might be accomplished
with fewer personnel, instead relying on section or agency heads to decide whether staffing in their
specific section is adequate. The OIG team identified several positions that require a more
thorough justification before the embassy should refill them.

        In the executive office, there are two staff aides. The second staff aide position was
reprogrammed from a position created in 2010 for a political officer in Johannesburg, and it was
added in the absence of a local-hire protocol assistant. The protocol assistant is now in place. The
second staff aide position requires a review before it is filled a second time, either as a staff aide or
as the originally intended political officer.

        As noted above, executive office attention is required to eliminate duplication of effort
within the PEPFAR operation. In addition to saving money, reducing or realigning PEPFAR
positions will likely produce greater efficiency in administering the program.

        The political and economic sections have not looked carefully at portfolios and officer
workload. In addition to the one office management specialist position recommended for
elimination (see political/economic section above), the embassy could have one officer handle a
combined portfolio that two officers currently hold separately. Some of the potential portfolio
realignments include: combining the trade and macroeconomic reporting positions in the economic
section; combining the energy and mining reporting position with the environmental, science,
technology and health position in the economic section; and combining the human rights and
domestic politics reporting positions in the political section.

        The mission’s public affairs operation also is generously staffed. The PAS in Pretoria has
an American office management specialist, although the section does little classified work and a
local employee could do the job. Consulates General Cape Town and Johannesburg each have two
American public affairs officers. The mission could eliminate some lower-priority programming
and reduce each consulate to one public diplomacy position, with Embassy Pretoria providing back
up for large events. There are also possible cuts in local staff positions. There is little need for an

                                            28
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

IRC assistant in Johannesburg, given the limited use of the IRC. Likewise, the mission could
eliminate the second IRC position in Durban. There are three local employees in the Pretoria
audio-visual unit; the mission could eliminate one position. A secretary for the cultural affairs
officer was just hired, but the position is unnecessary. Better coordination between Johannesburg
and Pretoria may result in additional position savings.

        The OIG team identified two eligible family member positions and one local staff position
in the three consular sections that could be eliminated upon the departure of the incumbents. Those
are described in detail in the consular section below and include the Pretoria consular associate
position, the Durban professional adjudication specialist, and a Cape Town visa clerk position.

       Management staffing is adequate for the size of the mission. A reduction in Durban staffing
or change in Johannesburg’s status may result in the need for fewer management positions
mission-wide.

Recommendation 17: Embassy Pretoria should set up a working group, chaired by the deputy
chief of mission, to conduct a thorough staffing review, reducing unnecessary positions and
avoiding duplication of effort. (Action: Embassy Pretoria)

Overcrowding and Underutilization

        Embassy Pretoria has become overcrowded, with a number of agencies forced to locate in
offices outside the chancery. At the same time, Consulate General Cape Town has considerable
excess office space. Consulate General Johannesburg also has some underutilized space.

        In addition to the planned USAID-Department annex, transferring some operations from
the embassy to one of the consulates general would help relieve overcrowding. The inspection
team identified several offices that should be reviewed for possible transfer from Pretoria,
including the Open Source Center, portions of the information unit of PAS, the regional
information management center (RIMC), and the Department of Agriculture’s Animal and Plant
Health Inspection Service office. A comprehensive survey may identify additional candidates for
transfer.

Recommendation 18: Embassy Pretoria should conduct a comprehensive analysis to determine
whether any offices currently located in Pretoria could be transferred to underutilized space at
Consulate General Cape Town or Consulate General Johannesburg. (Action: Embassy Pretoria)

Johannesburg: Consulate or Embassy Annex

        Consulate General Johannesburg, located 35 miles from Pretoria, was constructed in 2009
and has some vacant space. Embassy and consulate management have floated preliminary ideas on
whether Johannesburg should maintain its consulate status or become an embassy annex but have
not yet followed through on a detailed review. The OIG team reviewed the potential cost savings
of eliminating the consul general position and selling the residence. In addition, turning
Johannesburg into an embassy annex may allow reduction of some other American and local staff
positions in public affairs and management.


                                          29
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        A new consul general has been assigned to the consulate and arrives in the summer of
2011. Other officers also depart during the summer transfer cycle and have replacements ready to
arrive in Johannesburg within a few months. Decisions affecting the staffing and future of the
consulate could involve curtailing some American assignments.

Recommendation 19: Embassy Pretoria should do a cost benefit analysis to determine whether
the change of Johannesburg from a consulate to an embassy annex is warranted. (Action: Embassy
Pretoria)

Consulate General Durban: Downsize or Close

        Consulate General Durban, the mission’s smallest constituent post, has seven U.S. direct-
hire officers and 25 local employees. The consulate has strong relationships with senior provincial
and local government officials whose support is important to advancing the MSRP’s health,
education, economic growth, and governance goals. The province has the highest incidence of
HIV/AIDS in South Africa; hence, a recently appointed provincial coordinator is working to bring
order to the U.S. Government’s multimillion dollar PEPFAR investment. Although these efforts
are important, there are alternatives that would reduce the American footprint and the cost to
maintain a full service consulate general.

        The information resource library is not used frequently, and the consular section has a
modest workload. Consular clients could be served by Consulate General Johannesburg, an hour
away by air. The present cost to operate and maintain the consulate general (excluding staffing
costs) is over $1.9 million. This figure does not include some ICASS lease costs, costs for local
guards billed to agencies separately, and American salaries that the central personnel system pays.

        Given current and ongoing U.S. Government budget limitations and cost constraints, it is
time to analyze the cost to maintain and operate Consulate General Durban, and explore alternative
staffing and operational structures. The mission could establish an American Presence Post, a
branch office, a consular agency, or a smaller consulate in Durban and realize both cost savings of
approximately $1.5 million and funds put to better use. If the post were downsized to a small
consulate, for example, the mission could limit staffing to one to three Americans, with a reduced
local staff. That change could result in over $2 million in funds put to better use from American
direct-hire staff reductions and a $300,000 savings to the mission from a reduction of 10 or more
local staff. Selling the consulate general’s residence could yield about $3 million and save the
mission about $31,000 in official residence expenses.

        Closing the consulate should also be considered. While the consulate staff contribute to
mission goals, it is not essential to have a permanent presence to get the job done. Department of
Homeland Security employees assigned to Durban have confirmed that they can continue to carry
out their responsibilities without the presence of a consulate. Readily available transportation
options and use of technology would enable Embassy Pretoria to advance U.S. interests in Durban.
Closure would result in considerable savings of U.S. taxpayer monies.

Recommendation 20: The Bureau of African Affairs, in coordination with Embassy Pretoria
should significantly downsize or close Consulate General Durban. (Action: AF, in coordination
with Embassy Pretoria)
                                          30
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED



General Management

        Embassy Pretoria’s rapid and extensive staffing growth has taken a toll on the management
section’s ability to focus on mission-wide forward planning. The section is focused largely on the
day-to-day issues that require immediate attention. Housing issues consume a large amount of
officer time. The severe lack of office space has prompted the management section to discuss
possibly shifting offices between the embassy and the consulates and closing or reducing the size
of some consulates. The preliminary discussions include some review of costs associated with
these alternatives, but a more comprehensive review is needed. The management section would
benefit from a strategic plan to identify key issues and comprehensive solutions for the provision
of management services throughout the mission.

           Informal Recommendation 15: Embassy Pretoria should develop a mission-wide
           strategic plan for the provision of management services that identifies the most
           significant challenges and potential solutions.

         In this environment, the mission’s management operation has allowed some slippage of
management controls, and staff development needs at the consulates to go unmet. Consulate
General Cape Town, the furthest distance away, has suffered from weak internal management.
Cape Town’s entry-level and other, more junior personnel receive little mentoring and fewer
growth opportunities than their counterparts in Pretoria. Problems in Cape Town that rose to the
attention of Pretoria management were not quickly resolved. Cape Town and Durban also have a
number of inventory control issues and will need continued help from the embassy to resolve
them.

        Nowhere is the effect of rapid growth more evident than in Embassy Pretoria’s housing
arena. Several employees conveyed frustration with their housing assignments and noted the
impact on embassy morale. The embassy is having difficulty managing expectations for housing
assignments. The security situation dictates suitable housing and housing location, as do family
size, position level, and availability. Maintenance issues create stress on residents, particularly
when nonresponsive landlords stall the process.

       While the embassy has paid attention to housing and maintenance, the problems continue.
The section is not working as closely as necessary with agencies whose officers have less
experience in the overseas environment to help them set reasonable expectations for housing and
maintenance prior to their employees’ arrival in Pretoria.

           Informal Recommendation 16: Embassy Pretoria should develop and implement an
           action plan for working closely with the relevant U.S. agencies, to help them set more
           realistic housing expectations for new employees.

        Another crosscutting issue is late vendor payments, often for blanket purchase agreements.
Several companies that maintenance technicians use to purchase parts and supplies have declined
to provide goods, citing late or nonpayment for previous purchases. In several cases, the late
payments were the responsibility of a non-Department agency. In some of those cases, the
embassy terminated the blanket purchase agreement and created a new one for Department-only
                                           31
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

purchases. The effect has been to limit relationships with some formerly responsible companies,
particularly smaller ones that rely on prompt payments, and to decrease opportunities for
competition. The Prompt Payment Act requires the U.S. Government to pay valid invoices with
proper receiving reports within 30 days, and the South African Government recently implemented
a new Credit Act that will impose harsher penalties for late payment.

Recommendation 21: Embassy Pretoria should review all procedures for handling invoices and
vendor payments for the Department and other agencies, determine where the delays in the process
are occurring, and take steps to fix the process. The embassy should send out a reminder to all
agency heads that late vendor payments accrue interest and that timely payments are essential.
(Action: Embassy Pretoria)

Financial Management

        Embassy Pretoria manages one of the largest overseas financial management units. In FY
2010, it managed $69.6 million in post-held funds and processed payments totaling $84.6 million.
The unit paid 34,200 vouchers (32,500 vendor payments and 1,700 cashier vouchers) and
processed 18,800 fiscal strips for obligations. The embassy outsourced travel voucher processing
to the post support unit in Bangkok; thus, travel vouchers are completed and advances are repaid in
a timely manner.

        The financial management unit is responsible for overseeing financial services not only for
the embassy and the three consulates general in South Africa, but also for Embassies Mauritius,
Lesotho, and Swaziland. To meet these regional responsibilities, the unit employs 2 direct-hire
American financial management officers, 25 local employees, and 2 regional specialists. The
regional local staff or the financial officers visit the consulates general and the supported
embassies at least once a quarter. The visits provide critical support to these consulates and
embassies that have no U.S. direct-hire financial management officer. Regional employees pay
particular attention to cashiering and vouchering during their assistance visits.

        One of the regional financial specialists visited all of the consulates general while the
inspection team was at those locations. In all three locations, cash counts were accurate and
vouchers were properly certified in the consolidated overseas accountability toolbox. Certification
procedures were completed in timely fashion, except in Cape Town, where the management officer
was often late with certifications.

           Informal Recommendation 17: Embassy Pretoria should instruct the Consulate
           General Cape Town management officer to certify vouchers at least once each week.

       In Cape Town, there is a surfeit of coins. Hence, the cash count took more than 2 hours.
There is no need for so many coins.

           Informal Recommendation 18: Embassy Pretoria should instruct Consulate General
           Cape Town to sell unneeded coins to the bank.

       The Bureau of African Affairs also provides cashier oversight, through its rover program
and the Financial Support and Training Office, both located in Paris. The Financial Support and
Training Office has trained and designated Class B cashiers who assist with staffing gaps and
                                                32
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

monitor cashier accounts. The office provides training to overseas staff on new systems and
procedures from training sites located in Paris, Bangkok, and Charleston.

        Currently, there are no fully qualified back-up cashiers in the consulates general. Consulate
General Cape Town is in the process of recruiting for a Class B cashier. The management officers
in the consulates general have identified but not fully trained backup cashiers. Without fully
trained back-ups, consulates may have problems processing cash transactions.

           Informal Recommendation 19: Embassy Pretoria should require the consulates
           general to train designated back-up cashiers and should schedule training for back-up
           cashiers and a new Class B cashier as soon as the hiring process is completed.

        None of the consulates have back-up certifying officers. Consequently, when the primary
certifying officer is not available, vouchers are delayed waiting for payment certification. These
delays may prevent the cashier from obtaining cash replenishment.

           Informal Recommendation 20: Embassy Pretoria should require all of the consulates
           general to designate back-up certifying officers.

Human Resources

        The human resources (HR) office in Embassy Pretoria supports 525 employees in the
embassy, three consulates, and six ICASS subscriber agencies. The office also provides regional
support for Missions Swaziland and Lesotho, and the regional HR officer provides mentoring
support to the mission in Madagascar. The senior HR officer and regional HR officer visit the
supported consulates and embassies on a quarterly basis, but they provide the majority of support
long distance via email and phone conferences. Each consulate uses a locally employed HR
assistant to manage daily tasks such as time and attendance records, and all rely heavily on
Embassy Pretoria for support on evaluations, recruiting, hiring, and other personnel actions.

        In general, the regional arrangement provides a cost-effective approach to HR management
in the mission. However, the HR assistants in two of the three consulates are new to their positions
and have little formal training. Until the assistants are fully trained, the senior HR officer can best
serve the consulates by using her visits to train the HR assistants and the management teams they
support.

Performance Management

        Embassy Pretoria successfully tracks the completion of annual performance evaluations for
both American and local employees in the embassy and the consulates. Considering the number of
employees in South Africa, the HR office has a very low rate of late evaluations. However, many
supervisors are not working with their local employees to complete timely work and development
plans (due 30 days after the annual or interim performance evaluation) or to provide interim
counseling sessions to discuss performance (required at least once per rating period). The HR
office does not have a process in place to track these aspects of the performance process. Local
employees noted that they see these issues as a failure of the performance management system,


                                           33
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

and they often question whether the mission has followed all of its requirements when corrective
actions, particularly terminations, are needed.

Recommendation 22: Embassy Pretoria should develop and implement procedures to track the
completion of the required work and development plans and the timely completion of interim
counseling sessions on performance. (Action: Embassy Pretoria)

Local Compensation Plan

        In the year preceding the inspection, the HR office made it a priority to revise the local
compensation plan to allow for withholding domestic taxes. It received the amended plan from the
Bureau of Human Resources late in the inspection period. The number of employees with tax debts
(approximately 70 per cent of mission staff) has a significant impact on mission morale. Local
employees cited the work done on the new tax withholding system as their number one HR
concern, noting that they had tried for many years to have automatic tax withholding. Embassy
Pretoria expects to implement the new withholding in April 2011, with the plan taking full effect
by March 2012. This new policy is a significant accomplishment for the mission, and employees
are already encouraged by the attention this problem was given, handing credit to the Pretoria HR
office as well as the Ambassador and DCM.

        There are still concerns about how the new tax withholding system may affect non-South
African employees or South Africans in certain tax categories. There is also some confusion about
how the withholding will work; inspectors heard conflicting explanations in discussions at the
consulates. The HR office is meeting with the South African revenue service and a third- party
company to work on some of these issues, and the mission is drafting guidance and tools to release
by the end of March 2011.

           Informal Recommendation 21: Embassy Pretoria, after implementing the new tax
           withholding system, should arrange for the senior human resources officer to meet with
           each of the locally employed staff committees to assess how well the process is
           working and whether employees need further guidance.

General Services Office

        The general services office provides a wide range of services to Embassy Pretoria’s large
staff. Housing issues are a predominant challenge. ICASS services are stretched thin to meet the
needs and expectations of the constantly growing staff; funding for ICASS has not increased
commensurate with this expansion. General services officers at the consulates general need more
guidance and mentoring.

Housing

        Housing has been one of Embassy Pretoria’s most challenging issues, and it continues to
concern embassy management. Despite concerted efforts to address housing complaints and
explain requirements, Embassy Pretoria still faces housing issues. The embassy has undertaken
positive steps to manage expectations, and the results should minimize discontent. While housing
in Pretoria is quite nice, a few people remain upset and concerned about housing long after they
have moved into a residence.

                                          34
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

        Further exacerbating the housing problem is that landlords have not always made repairs,
and the facilities management unit’s maintenance employees are doing repairs that the landlords
should perform. In many instances, embassies gain leverage over landlords by deducting the cost
for doing such repairs from their monthly rental payments. However, at the landlords’ request,
Embassy Pretoria has been paying the first year’s lease costs in advance. The embassy pays
subsequent years’ leases semiannually. It is difficult to deduct repair costs from prepaid leases.
Since most maintenance problems do not arise in the first year of the lease, changing leases to
quarterly payments after the first year might increase landlord responsiveness to the embassy’s
repair needs.

           Informal Recommendation 22: Embassy Pretoria should make lease payments, after
           the first year, on a quarterly basis.

        A single landlord owns many of the compound residences, which is not a desirable
situation. Alternatives are not readily available, however, and the U.S. Government’s investment in
these houses is substantial. Since security and safety upgrades to prepare a house for occupancy
cost about $45,000, efforts to lease new housing have been stymied by the lack of suitable housing
and the need to minimize investments. Efforts by the housing unit of the general services office
have improved this landlord’s responsiveness, but many of the houses were quickly (and in some
cases, poorly) constructed, and maintenance issues continue. In the future, before leases are
renewed, the facilities management unit will inspect houses to be sure that technical problems such
as plumbing, power, and structural issues are addressed before the lease is signed. The regional
security office will continue to approve housing.

Housing Assignments

        The guidance in 15 FAM 200 clearly states that the Housing Abroad Program’s objective is
to provide safe and secure housing, adequate for employees’ personal and professional needs.
Importantly, housing shall be provided to employees based on position rank and family size. These
two factors determine employees’ maximum space authorization.

       Employees generally are assigned to their houses before arriving at post, based on
responses to a housing questionnaire; however, there is no assurance that their preference will be
honored, given housing availability at the date of arrival. The housing officer recommends
assignments and the Interagency Housing Board makes the final decision.

        The Interagency Housing Board is responsible for ensuring fair and equitable treatment for
all employees. The OIG team recognizes that tension among housing board members sometimes
has affected the outcome of an assignment. Further, employees of some non-foreign affairs
agencies are new to overseas life and need more information about embassy staff housing and how
assignments are made. The Foreign Service Institute publishes a packet of housing information
that could fill that need.

Pretoria Housing

       In Pretoria, there are three types of housing: stand-alone houses, residences located in
compounds, and residences located in gated communities. In fact, few residents among those
assigned to over 235 houses complain; most are well-satisfied. In the past, the mission sent
                                                  35
                                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

welcome information to new employees, indicating a wide number of housing choices. Security
and safety requirements have reduced those choices, and new employees may not get their first
choice housing assignment. Some complaints do arise from residents who would prefer a stand-
alone house to compound housing, but the requirement to increase the number of residences in
compounds is based on Department regulations (12 FAH-8 H-143.4). Changing the housing pool
composition takes time and involves several steps, from eliminating stand-alone housing to leasing
new compound residences. The regional security office provides 24/7 guards for compounds (12
FAH-8 H-145.4(b)), but not for stand-alone housing.

        The general services unit’s housing office sends housing surveys to new employees. These
surveys appear to promise housing assignments that in fact cannot be guaranteed. In response to
the OIG team’s suggestion that the survey information was misleading, the office commenced
revising the survey language. Managing expectations through a revised survey will help mitigate
the existing level of housing discontent and would help incoming staff understand that, although
the Department’s goal is to meet their preferences, their housing choices are not guaranteed.

Executive Housing at Consulates General

        In addition to the consul general’s residence, Cape Town retains an ambassador’s
residence, a legacy from the time ambassadors spent much of the summer Parliamentary session in
Cape Town. The property is underutilized and expensive to maintain. The Ambassador spent about
14 days at the residence in 2010 and early 2011. Representational use does not justify retaining this
property, since representational events are often catered, and many are held in outside locations.
The cost to maintain the residence in 2010 was over $8,000, including daily pool maintenance,
plus the official residence staff salary of $18,000. The residence staff member is not well
supervised, and the house is not well kept.

        The consul general’s house is adjacent to the ambassador’s residence. The houses are
separated by a winding garden path and share a tennis court. There is also a large representational
residence, which the PAO occupies. Only two of these three expensive and expansive residences
are fully used. Knowledgeable local employees estimate selling the ambassadorial residence would
net about $3 million. They also believe that a similar sum could be expected if the consul general’s
residence were sold instead.

Recommendation 23: Embassy Pretoria, in coordination with the Bureau of Overseas Building
Operations, should determine which executive-level residences in Cape Town should be sold and
which should be maintained. (Action: Embassy Pretoria, in coordination with OBO)

       Other executive-level consulate general residences could be sold. If the mission decides to
change Consulate General Durban to an American Presence Post or branch office, Durban will no
longer need an executive-level residence. The residence, with pool, tennis court, and guest house
would likely sell for $2 million to $3 million.

        Additionally, changing Consulate General Johannesburg to an annex would eliminate the
need for the consul general’s house. That residence also would sell for $2 million to $3 million.
There is a beautifully renovated, U.S. Government-owned residence in Johannesburg that could
serve as a representational house if the consul general’s house were sold.
                                           36
                               SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED



           Informal Recommendation 23: Embassy Pretoria should determine whether consulate
           generals’ houses in Durban and Johannesburg are needed, and sell them if they are no
           longer required.

Travel Services

        Embassy Pretoria provides travel services for subscribing ICASS agencies and the
Department’s staff. Regional agency and Department operations in the embassy generate a heavy
travel workload. The travel office provides support for purchasing airline tickets, booking hotels
and local transportation, and managing visa applications for employees traveling outside of South
Africa. In the past year, the travel office processed more than 1,700 requests, with only two of the
three positions filled. Before the end of the inspection, the travel specialist also left her position,
leaving the remaining travel clerk with a heavy workload.

         Embassy Pretoria purchased a number of higher-fare, economy D class airline tickets that
were upgradeable to business class for travel between Johannesburg, Cape Town, and Durban.
These tickets are more expensive than another economy class fare, Y class, that is available
without change restrictions or penalties. Posts may not expend more funds for a coach class ticket
to qualify the trip for an upgrade, when an unrestricted coach class ticket is available for a lower
fare. It is possible that, in some cases, the Y class tickets were sold out for the specific flights and
the traveler was on a restricted schedule requiring the purchase of the more expensive D class
ticket. However, the OIG team found no justifications on file with information on other travel
options; instead, the authorizations included a note stating that the tickets were economy class with
business class upgrades. Without documentation, the OIG team could not determine that the ticket
was purchased on the lowest available fare that met the mission’s requirements. Documentation is
also required in cases where the traveler pays the extra cost for the upgradeable ticket.

Recommendation 24: Embassy Pretoria should implement procedures to document all business
class travel, including upgraded travel when lower fare tickets are not available and when the
traveler pays for the upgrade. (Action: Embassy Pretoria)

        The assistant general services officer is the designated approving official for Department
employees on official travel, including the Chief of Mission. Some of these authorizations have
included business class travel on domestic flights for the Ambassador. The designated approving
official for business class tickets must not be subordinate to the traveler, and in the case of the
Chief of Mission, approval must come from the bureau executive director.

Recommendation 25: Embassy Pretoria should revise the approval structure for business class
travel so that the designated approving official is not subordinate to the traveler. (Action: Embassy
Pretoria)

Official Visit Support

        The mission in South Africa supports a large number of official visits each year. Embassy
Pretoria alone averages 10 to 15 high-level visits each year, and Consulate General Johannesburg
serves as an unofficial regional conference center and training hub. Consulate General Cape Town
                                            37
                                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

also supports a heavy visitor workload. Mission employees gained considerable experience
supporting visitors during the 2010 World Cup, and developed strong relationships with hotels and
other service providers who assist with visits. The mission developed useful procedures that have
not been put into writing, and many of the Foreign Service officers who led these efforts will soon
leave South Africa. The mission’s guidebook on visits is out of date and does not include
information about charging expenses to travelers’ fiscal data, nor does it have a record of
relationships with hotels and other service providers. The mission will not be prepared for future
high-level visits without developing standard operating procedures and an updating its guidebook.

Recommendation 26: Embassy Pretoria should revise the guidebook for official visits to include
the proven practices and updated information. (Action: Embassy Pretoria)

Procurement

        This is an excellent unit, with a fully trained and highly experienced staff. Two recent
departures have, however, left the unit understaffed. Each was expert with contracting
requirements, developing statements of work, coordinating changes, and assisting with difficult
acquisitions problems.

        To meet budget constraints and operate through ongoing continuing resolutions, the unit
accomplishes many purchases on purchase orders, cash vouchers for emergencies, and purchase
cards. They obtain and properly record funds availability data in the Bureau of Resource
Management’s financial systems. Many purchase cards are transaction-based and not bulk-funded,
to ensure fiscal solvency.

        Embassy Pretoria has funding set aside for 124 blanket purchase agreements, but the funds
are not obligated until the goods or services are actually purchased. The unit has multiple awards
for these requirements, ensuring the best price for each transaction. It keeps all required logs and
ample evidence of competition.

Property Management

        The embassy and consulates general share management of nonexpendable property.
Embassy Pretoria and Consulate General Johannesburg share a warehouse that is located in
Pretoria. The consulates general in Durban and Cape Town receive support from Embassy Pretoria
for property disposal and some receiving tasks. These consulates general also frequently receive
assistance with the annual inventory process.

       Consulate General Durban was preparing the annual inventory report during the OIG
team’s visit. The nonexpendable property supply clerk was terminated in 2010, and the position
remains vacant. Embassy Pretoria provided a team to assist in the inventory process, but they
departed before the summary documents were completed. The draft report showed an impossibly
high shortage, indicating that the inventory may have been conducted incorrectly.

Recommendation 27: Embassy Pretoria should conduct a new annual inventory in Consulate
General Durban, providing assistance throughout the entire process. (Action: Embassy Pretoria)

                                           38
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

        Embassy Pretoria operates a residential furniture and appliances pool, but not all of the
ICASS agencies in the housing pool have joined the furniture and appliances pool. As a result, the
mission maintains an unnecessarily high number of furniture pieces and appliances as a
contingency. For example, there are more than 30 refrigerators in the warehouse. Agencies that are
not members of the furniture pool also store furniture and appliances in the warehouse. Furniture
and appliances have a shorter than optimal life span when they are constantly moved between
residences and the warehouse, whenever a house is transferred between agencies. The warehouse
supported 61 furniture moves in 2010 when houses were transferred. Pooled furniture can remain
in the houses, reducing the number of furniture moves. The goal of ICASS consolidation is to
maximize economies of scale and provide the best service to all members in the most efficient
manner possible. Having separate memberships in the housing pool and the furniture pool prevents
the mission from achieving this goal.

Recommendation 28: Embassy Pretoria should require that all subscribers to the International
Cooperative Administrative Support Services housing pool also subscribe to the International
Cooperative Administrative Support Services furniture and appliance pool. (Action: Embassy
Pretoria)

       Embassy Pretoria keeps a very small stock of expendable supplies on hand, and relies on
blanket purchase agreements and purchase orders to respond to more than half of the mission’s
supply requests. The outcome is a larger number of purchases than there would be if the embassy
kept expendable supplies in inventory. There is no shortage of storage space for expendable
supplies. Keeping a larger stock of expendables on hand not only would reduce the workload, but
also would allow the mission to take advantage of potential savings by purchasing expendable
supplies in bulk.

Recommendation 29: Embassy Pretoria should review the expendables stock inventory and
increase the stock to a level that eliminates the need for heavy reliance on separate purchases for
requested supplies. (Action: Embassy Pretoria)

        Consulate General Johannesburg expanded its property management role, with its move
into the new consulate building and an increase in general services staff. To separate the property
management duties, the general services officer assigned expendables and nonexpendables
management responsibilities to two relatively new employees who had been hired as trades
helpers. These employees are successfully revising procedures in the consulate, to address past
problems with the receiving and issue processes. However, their property management
responsibilities are not reflected in their position descriptions, and they may be undergraded for the
work they are performing.

Recommendation 30: Embassy Pretoria should revise the position descriptions for the trades
helpers in Consulate General Johannesburg to reflect their new responsibilities in managing
nonexpendable and expendable property. (Action: Embassy Pretoria)

       The management controls portion of this report also contains recommendations concerning
property management.



                                           39
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Official Vehicles

        The mission’s motor vehicle policy marginally addresses the chief of mission’s authority
over all U.S. Government official vehicle programs in South Africa, but it lacks clarification
regarding which specific program requirements must apply to all agencies. It also includes a broad
provision for other authorized use of vehicles, whereby the management officer may decide on a
case-by-case basis to approve use not otherwise included in the policy. The deficiencies in the
policy create confusion over what constitutes authorized use, and how the general services office
should manage the process.

           Informal Recommendation 24: Embassy Pretoria should revise the motor pool policy
           to reflect country-wide requirements, and should clarify the other authorized use policy.

        Embassy Pretoria and USAID South Africa have an agreement to consolidate motor pool
resources into a single ICASS motor pool. Both of the motor pools operate with a reduced number
of drivers, and Embassy Pretoria relies on contracted chauffeur companies to provide official use
transportation when their drivers are unavailable. Since the fees the chauffeur companies charge
are very high, it is questionable whether using chauffeurs, instead of embassy vehicles and drivers,
is a cost savings for the mission.

           Informal Recommendation 25: Embassy Pretoria should conduct a utilization survey
           that includes vehicle use for the International Cooperative Administrative Support
           Services motor pool and United States Agency for International Development, to
           predict the demand on the consolidated motor pool and evaluate the cost of continuing
           to use contracted services for transportation beyond what the combined motor pool will
           be able to provide.

         Consulate General Johannesburg’s motor pool supervisor assigned a number of
administrative duties to one of the drivers. This driver now is spending the majority of his time on
these administrative duties and filling in for the motor pool supervisor. He is operating as an
assistant supervisor and dispatcher, but his position description and work requirements do not
reflect the work he is doing.

           Informal Recommendation 26: Embassy Pretoria should evaluate the administrative
           workload for the Consulate General Johannesburg motor pool and assign duties
           accordingly.

       The management controls section of the report also contains a recommendation related to
the country-wide oversight of official vehicles and the motor pool programs.

Shipping

        Embassy Pretoria operates a regional shipping office, providing support not only to the
embassy and consulates in South Africa, but also to Embassies Maseru, Mbabane, Lilongwe,
Windhoek, Gaborone, Lusaka, and Antananarivo. In 2010, the office supported more than 600
imports and 250 exports, and processed 879 invoices. The office also supports registration and
other services for more than 600 vehicles, both U.S. Government-owned and personally owned by
American employees in South Africa.

                                           40
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


        In response to an OIG recommendation from its inspections of the regionally supported
missions, the shipping office held a regional conference in 2010 for representatives from southern
Africa missions. The workshop provided education on the processes and vendors that Embassy
Pretoria uses, and it provided the opportunity for missions to complete memoranda of
understanding that clearly define the services Embassy Pretoria will provide for each mission. The
workshop also generated a number of suggestions for cost savings, including purchasing containers
in Durban and then reselling them in the destination countries, avoiding the demurrage and storage
fees; offering to purchase expendable supplies through South Africa, to reduce transportation costs
on items previously purchased in the United States and shipped to missions; shipping personal
vehicles in vehicle car carriers, to save the cost of containers; and asking the dispatch agency to
wait for enough orders to complete an entire container, rather than shipping partially filled
containers or grouping them with non-mission shipments. The office already has seen a number of
positive results from these suggestions.

Facilities Management

       The mission has a robust facilities management operation, with two U.S. direct-hire facility
managers in Pretoria, one facility manager in Cape Town, and a trained locally employed facility
manager in Johannesburg. Embassy Pretoria has six office buildings to maintain, including the
chancery, and more than 250 U.S. Government-owned and short-term lease properties. Consulate
General Cape Town is located in a new facility, completed 5 years ago; the new consulate in
Johannesburg was completed in 2009. Consulate Durban is located in a commercial building, but
has two U.S. Government-owned residences to maintain.

         The large Embassy Pretoria facilities operation is well managed, with some staff and the senior
facility manager located in the chancery and responsible for maintaining all office spaces with the
exception of the USAID building. The remainder of the staff and the first-tour facility manager work
from the embassy’s warehouse. Together, they handle all residential maintenance, a function that has
historically challenged embassy management. On February 1, 2011, a new office began operation, with
six residential coordinators. Each of these six employees (five local employees and one eligible family
member) handles a portion of the embassy’s housing pool. The new residential coordinators are the
liaisons between customers and landlords on all residential maintenance issues.

        At the time of the inspection, the new office had been in operation for only a few weeks,
but the assistant facilities manager already had received positive customer feedback on the
coordinators’ work. Some internal challenges remain, the most significant being that the current
personnel structure gets in the way of accountability and customer service. The residential
maintenance office has grown, absorbed USAID staff, and set up the new residential coordinators
group without making other changes to work flow within the facilities office. In addition, two
supervisors in the unit have similar job duties, and there is insufficient workload to justify both
positions. The result is too many layers of supervision and not enough communication among the
clerks who receive work orders, supervisors who assign them the work, maintenance technicians
who carry out the work, and residential coordinators who interface with customers and landlords.

Recommendation 31: Embassy Pretoria should eliminate the maintenance foreman position and
improve work flow and communication among maintenance technicians, residential coordinators,
and work order clerks. (Action: Embassy Pretoria)
                                               41
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



         The American facility managers do not have regular meetings with staff below the
supervisor or foreman level. Until the second facility manager arrived, the existing facility
manager’s workload precluded attending those meetings. Consequently, maintenance technicians
in the chancery and at the warehouse have had little opportunity to give unfiltered feedback to the
facility managers or to hear directly from the facility managers about policy changes that affect
their work.

Recommendation 32: Embassy Pretoria should establish regular facilities management meetings
that include maintenance technicians. (Action: Embassy Pretoria)

        In Johannesburg there is one locally employed facility manager and one maintenance
supervisor. Both have similar job descriptions, although generally the facility manager handles the
consulate office space, while the maintenance supervisor handles residential maintenance. Other
employees in the unit, however, say they report to both of the supervisors; hence, the lines of
authority are unclear. The local facility manager position was created when the consulate building
was completed, and it became clear that additional employees with more training were needed to
maintain all of the new systems. Extant job descriptions were not changed. Because both
supervisors have similar job descriptions, there is sometimes confusion about where responsibility
and accountability lie.

           Informal Recommendation 27: Embassy Pretoria should revise the job descriptions
           for the two senior positions in the Johannesburg facilities management office to
           eliminate overlap or confusion of responsibilities.

        Consulate Cape Town has an excellent first-tour facility manager, who gets high marks
from his staff and his customers. The facilities team works closely with customers to ensure their
satisfaction.

         Building automation systems in Cape Town and Johannesburg are problematic. Both posts
have complex, highly technical systems that require specialized knowledge, including computer
skills, to reprogram the systems and use them for optimal efficiency. There is no local technician
who is trained to reprogram either system. The Bureau of Overseas Buildings Operations (OBO)
awarded a contract for a U.S. technician to travel to Johannesburg to reprogram its building
automation system, but the technician will not adjust the Cape Town system because it is
manufactured by a different company. Each of the new consulates general needs a trained
technician on site to reduce maintenance costs and improve system efficiency.

Recommendation 33: The Office of Overseas Buildings Operations, in coordination with
Embassy Pretoria, should provide training to local employees in Johannesburg and Cape Town, so
they can reprogram the building automation systems for maximum efficiency and maintain those
systems. (Action: OBO, in coordination with Embassy Pretoria)

        The mission owns residences in Pretoria, Johannesburg, Durban, and Cape Town. In a
country with high rental rates and a tight housing market, owning residences results in cost savings
to the U.S. Government; however, insufficient funding for maintaining and renovating this housing

                                          42
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

has left some of it in substandard condition. Moving employees into substandard housing has
created morale problems in Pretoria.

Recommendation 34: Embassy Pretoria should request, and the Bureau of Overseas Buildings
Operations should approve, additional resources to renovate U.S. Government-owned housing up
to the standards of leased housing. (Action: Embassy Pretoria, in coordination with OBO)

Information Management

        Embassy Pretoria’s information management (IM) program is exceptionally well run. The
information management officer (IMO) uses a project management approach to handle embassy
obligations, regional responsibilities, and Department taskings, completing work on time and
within budget.

       Pretoria’s U.S. direct-hire staff is competent and proficient. The local employees are
motivated and perform their duties well. The embassy’s IM staffing is sufficient, if workload
remains stable and there are no staffing gaps.

      The Department’s cybersecurity scoring system, Ipost, has rated Embassy Pretoria as
number one in the African region for cybersecurity controls. Embassy Pretoria also was rated
number 13 worldwide.

        The Department is in the process of establishing a combined infrastructure network of
multiple agencies, for cost savings and information sharing purposes. Pretoria’s IMO is at the
forefront of this new foreign affairs network. The IMO meets with the agency heads, IM staff, and
other stakeholders to determine each agency’s needs. The agencies cooperate in this process.

       The IMO oversees IM operations at the embassy and at the three consulates general. The
embassy’s regional responsibilities include filling in during staffing gaps, providing technical
support, and supplying classified networking to the consulates.

        The OIG team found several problems – an inoperable telephone switch, unsecured
network switch, server room wiring, power panel labeling, and mail handling. Embassy Pretoria
fixed a number of the identified deficiencies while the OIG team was in country.

        At the consulates general, the management officer provides the performance rating for the
information program officer, while the consul general writes the review statement. The rater and
reviewer are capable of rating customer service, but they do not have the expertise to rate technical
performance. The IMO is the only supervisor capable of evaluating the information program
officers’ technical performance. If the IMO is not in the supervisory chain of command,
performance problems may persist without either the rater or reviewer being aware of them.

Recommendation 35: Embassy Pretoria should designate the information management officer as
the reviewing official for information program officers at the consulates general. (Action: Embassy
Pretoria)


                                           43
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The regional information management center (RIMC) performed a post requirements
survey of Embassy Pretoria’s telephone switch at both the chancery and the off-site facilities. The
current telephone switch is a Nortel Option 61C. The RIMC report states that, “the original
equipment manufacturer has gone out of business exacerbating the complexities of system
maintenance and future expansion.” The report also states that, “spare parts for this outdated
platform are becoming more difficult to obtain.” In addition, technical support is extremely
limited. The embassy had been on the foreign post telephone refresh list, until OBO decided to
build an annex on the chancery grounds. The annex project included installation of a new
telephone switch, and since then the annex has been dropped from the list of OBO projects.

Recommendation 36: The Bureau of Information Resource Management should reinstate
Embassy Pretoria on the foreign post telephone refresh list. (Action: IRM)
       (b) (5)




Recommendation 37: (b) (5)


       Respondents rated mail services low on the OIG workplace and quality of life
questionnaire. Aside from the international mail that is delivered through the South Africa mail
system, Embassy Pretoria and the consulates general have only pouch mail service. Mail services
received multiple negative comments, because of limitations on size and permissible content
through the pouch. Pouch limitations for personal mail have affected morale.

           Informal Recommendation 28: Embassy Pretoria should establish a diplomatic post
           office.

Consulate General Durban

        Consulate General Durban IM staff has one U.S. direct-hire and three local employees. The
locally employed system administrator position has been vacant for some time. Embassy Pretoria
employees and staff from other embassies in the region have been backfilling this position. At the
same time, the information program officer has been on extended sick leave. This position also has
been backfilled with personnel from Embassy Pretoria. The dedication and skill of the personnel
backfilling these two positions has kept Consulate General Durban’s IM program in good shape.

        As mentioned earlier in this report, Embassy Pretoria is evaluating Consulate General
Durban’s future. If the consulate is downsized, the information program officer position would be
one of the positions considered for reprogramming or elimination.
       (b) (5)




                                          44
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Recommendation 38:(
                       b
                       )

        The consulate general’s information systems center was designed with one main electrical
circuit breaker for all systems. The circuit breaker is located in an electrical room in the corridor. A
small fire or smoke in the information systems center would require a person to walk to the main
circuit breaker and shut off all equipment, causing a denial of service. This situation could be
mitigated if the information systems center had a power panel with individual circuit breakers for
the outlets.

           Informal Recommendation 29: Embassy Pretoria should install in Consulate General
           Durban’s information systems center an electrical power panel with individual circuit
           breakers for the outlets.

Consulate General Cape Town

        Consulate General Cape Town has an information program officer and an information
systems officer. The locally employed staff includes a system administrator, three
receptionists/telephone operators, and one mail room employee. There is one system administrator
position unfilled. The IM section runs well, and the morale within the section is good.

        The new consulate general was built with the network alternate route following the same
path as the primary route to the telecommunications central office. A natural disaster would cut off
all communications. Good management practice would normally have an alternate route that is
independent of the primary infrastructure.

Recommendation 39: Information Resource Management, in coordination with the Diplomatic
Telecommunication Service Program Office, should provide an alternate route for communications
at Consulate General Cape Town. (Action: IRM, in coordination with DTSPO)


Innovative Practice: Tagging Prioritized Equipment for Destruction

Issue: The emergency destruction plan requires prioritizing equipment for destruction, according
to the tripwires. Chaos is rampant during an emergency. The ability to identify and determine the
correct prioritization for equipment destruction is essential.

Response: Consulate General Cape Town installed color coded tags on equipment according to the
destruction priority.

Result: Tagging with color codes allows an easy way to identify the order for equipment
destruction. A person not trained in the nomenclature of the equipment could also help with
destruction, based on the tags.




                                           45
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Consulate General Johannesburg

        Consulate General Johannesburg occupies a new consulate compound. The two U.S. direct-
hire and three locally employed systems employees maintain an excellent IM program.

        The information systems center was installed without a temperature sensing device that
notifies personnel in case of overheating. Overheating could result in a denial of service or
equipment failure.

           Informal Recommendation 30: Embassy Pretoria should install a temperature sensing
           device that notifies personnel in case of overheating in Consulate General
           Johannesburg’s information systems center.

       The new consulate general was built without water in or near the mail handling facility.
The closest water outlet is approximately 200 feet away. According to 12 FAH-1 Annex F
addendum 8, water is essential in decontaminating personnel in case of a biohazard.

           Informal Recommendation 31: Embassy Pretoria should provide water to the mail
           handling facility at Consulate General Johannesburg.

        Consulate General Johannesburg has a dedicated Internet network for use by the public.
The computers do not require a logon. Regulations (03 STATE 00110378) require public users to
sign in and out. Account logons provide accountability, in case of inappropriate use.

           Informal Recommendation 32: Embassy Pretoria should provide account logons for
           the dedicated Internet network at Consulate General Johannesburg.

Information Security

        The OIG team performed penetration testing, network monitoring, server reviews, and
active directory account management at the embassy and the three consulates general. The OIG
team found deficiencies in equipment labeling, folder permissions, operating system patches,
active directory user accounts, unsecured printers, and wireless connections. The embassy and the
consulates general fixed these problems while the OIG team was in country.

       Embassy Pretoria has an information systems security officer (ISSO), who performs all
necessary duties and follows Department guidelines. However, the ISSOs at the three consulates
generals do not perform all of the required duties, citing lack of time. The ISSO duties prevent
unauthorized personnel from inappropriately using the system. The embassy’s ISSO could perform
some of the duties for the consulates remotely.

Recommendation 40: Embassy Pretoria should require information systems security officers at
the consulates to perform the information systems security officer duties, providing assistance as
necessary. (Action: Embassy Pretoria)




                                          46
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Regional Information Management Center

        Embassy Pretoria hosts the RIMC that provides regional technical support to 38 countries
in Africa. Its offices are located on the ground floor of the chancery in a controlled access area.

        The RIMC staff includes a deputy director, two support personnel, and five each of radio,
telephone, and digital technicians. The director position has been eliminated, as a part of RIMC’s
process of downsizing and consolidating staff in Frankfurt. RIMC Pretoria will be downsized
further by 2012. The final complement in South Africa will include one senior information
technology manager, one regional ISSO, one support staff, three radio technicians, three telephone
technicians, and two digital technicians. The OIG supports this downsizing effort.

        On a pre-inspection questionnaire sent to all the regional missions supported by RIMC
Pretoria, the center received high marks in digital, radio, and telephone service.


Quality of Life
Equal Employment Opportunity

        Embassy employees, mission-wide, lack an understanding of the complaints and grievance
processes available to them. Unresolved problems between employees can become allegations of
racial or gender bias when employees turn to the Equal Employment Opportunity (EEO) complaint
process for help resolving problems that may not be discriminatory in nature. There have been a
number of instances where management did not maintain adequate procedural records or
investigate allegations thoroughly. In some cases, supervisors and other confidantes breached
employee confidentiality. These episodes highlight the need for mission leadership to clarify the
processes for reporting misconduct, suspected malfeasance, grievances, and EEO complaints.

         In light of these recent incidents, a number of staff members expressed a lack of confidence
in their supervisors and the mission. The lack of understanding also results in a cycle of rumors
and innuendo that makes it more difficult for the mission to address allegations appropriately. The
mission provides standard guidance on available recourse and processes, in the handbook for
locally employed staff. However, the embassy is not adequately communicating or training staff
about how these procedures apply in specific circumstances. In addition, the particular individuals
whom employees may consult are not always clearly identified. The EEO counselors, local staff
EEO liaisons, local employee staff committees, and consulate HR assistants in particular would
benefit from training, including clarification of their roles in the complaint process.

Recommendation 41: Embassy Pretoria should develop clear and accessible guidance on the
processes available to employees for reporting complaints and grievances in a confidential manner,
and it should provide training to supervisors and any others identified as employee confidantes.
(Action: Embassy Pretoria)




                                           47
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Community Liaison Office

        There are community liaison office (CLO) coordinators in three of the four South African
posts; Durban’s coordinator position has been unfilled for some time. In Pretoria, there is a co-
CLO coordinator arrangement, but the second coordinator position has not been filled for months.
The sole coordinator struggles to keep up with the demands of the job. The embassy has not
funded training for the Johannesburg coordinator, who took over as a temporary coordinator a year
ago, upon the sudden departure of her predecessor. In Cape Town, two co-CLO coordinators run a
vibrant program.

        There is little consistency or systematic information sharing among the three CLO
operations. Newcomer orientation and the sponsorship program are priorities for all three offices.
In Pretoria and Cape Town, the coordinators maintain an extensive collection of pre-arrival
information that they send to newly assigned personnel. Cape Town also maintains a timeline and
checklist for sponsors. The Johannesburg coordinator exchanges individually crafted emails with
new arrivals and forwards questions she cannot answer to the relevant management personnel. All
three coordinators could benefit from standardizing their newcomer, sponsor, and orientation
materials, adapting the content for post-specific information.

           Informal Recommendation 33: Embassy Pretoria should require the community
           liaison office coordinators to standardize newcomer, sponsor, and orientation materials
           to the extent practicable.

        Fundraising is an ongoing problem for CLO coordinators. Until recently, all three CLO
operations were selling a variety of items to raise money for community events, in violation of
CLO guidelines. At the time of the inspection, all the CLO coordinators had disposed of lanyards,
baskets, wine, and other items that previous coordinators had been selling. Their fundraising
challenge remains, however. Bake sales and a percentage of sales from vendors’ corners are
favorite fundraisers. In Johannesburg, the locally employed staff committee operates two profitable
vending machines and gives 10 percent of the proceeds to the CLO coordinators, whose events
routinely include both local and U.S. staff and their families. In Pretoria and Cape Town, neither
the CLO coordinators nor the locally employed staff committees were aware of this option. There
are undoubtedly many other practices that coordinators could share for their mutual benefit. They
also could benefit from more frequent outreach to the Family Liaison Office in Washington.

           Informal Recommendation 34: Embassy Pretoria should initiate monthly digital video
           conferences for the community liaison coordinators, so that they can share strategies,
           lessons learned, and best practices.

        Each of the three CLO operations publishes a periodic newsletter. Pretoria and Cape Town
have part-time newsletter editors; in Johannesburg, the CLO coordinator writes the newsletter
herself. Pretoria’s newsletter comes out weekly, Cape Town’s monthly with a mid-month update,
and Johannesburg’s every two weeks. Pretoria’s newsletter editor might be able to assist the sole
CLO coordinator with event planning, if the newsletter were published less frequently.




                                          48
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

           Informal Recommendation 35: Embassy Pretoria should review and rationalize the
           frequency of the publication of the embassy and consulate general newsletters, and
           should reassign newsletter editor hours, if appropriate.

Health Unit

        Embassy Pretoria houses a large Medevac center that serves much of Africa. In recent
years, with the closure of the Medevac center in Nairobi, the number of Medevac cases that
Pretoria handles per year has increased from 29 to nearly 200, half requiring hospitalization.
Ninety-five percent of the Medevac patients go no further than Pretoria, where they are cared for
by local specialists or in local hospitals, and are followed by one of the Pretoria’s health care
providers.

          South Africa offers world-class medical care. Consequently, the Department routinely
makes assignments of U.S. direct-hire personnel with Class 2 medical clearances to South Africa.
If Pretoria were not a Medevac center, it might be staffed by a nurse practitioner or a local nurse at
best. Because it is a Medevac center, however, its medical professionals and administrative staff
also serve the embassy community. The doctors, nurse practitioner, and locally employed nurses
handled more than 2,500 patient visits last year, in cramped basement offices that span a public
hallway and offer little privacy for patients or medical personnel. Cell phone service to the health
unit is virtually non-existent, a situation that occasionally results in medical personnel talking to
local health practitioners and patients in the atrium. The regional medical officer (RMO) is hopeful
that, if the embassy eventually relocates some of its offices or personnel, the health unit will be
able to occupy a purpose-designed suite of offices on the ground floor.

       Despite its inadequate premises, the health unit received very high scores on the OIG’s
workplace and quality of life questionnaire. The regional medical manager, who oversees all sub-
Saharan Africa’s regional medical officers and nurse practitioners, characterized the Pretoria
Medevac center and health unit as one of the system’s very best. Despite the quality of local care,
embassy employees and their families clearly prefer having U.S. medical personnel on site.

       The Pretoria health unit is headed by an RMO who, until recently, covered 14 embassies
and consulates in the region. With the recent decision to assign an RMO to Harare and realign
responsibility for overseeing health units in southern Africa, the Pretoria RMO will be able to
spend more time in Pretoria and at the three consulates general in South Africa that do not have
medical professionals in residence.

        Pretoria’s health unit also includes a regional psychiatrist. Given the number of U.S. direct-
hire and local staff who have served in Iraq, Afghanistan, and Pakistan, the number of employees
and family members with Class 2 medical clearances, and her regional responsibilities, the
regional psychiatrist is an essential part of the health unit’s program.

        In 2006, Pretoria hired a local manager to coordinate the Medevac process, including
arrival of patients at the airport, their admission to the hospital, lodging for accompanying family
members, and follow-on consultations. Given the exponential growth in Medevac cases, these
arrangements alone constitute a full-time job. The Medevac manager assigns some of the lodging

                                           49
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

and transportation arrangements to the health unit’s eligible family member administrative
assistant, in order to cope with the workload.

         The Medevac manager’s job does not end with these complicated logistics. As required in
2006 State 092804,the health unit is responsible for reviewing all bills, sending them to the
financial management office for payment when there are fund cites, and submitting insurance
claims to Blue Cross Blue Shield or the Foreign Service Benefit Plan for all patients who were
hospitalized. Because the Medevac manager cannot handle Medevac arrangements and all the
related insurance submissions singlehandedly, the financial management office voluntarily submits
insurance claims to the Foreign Service Benefit Plan. However, the financial management office
may not always be able to provide this service. The Medevac manager also follows up with
employees on the payment of non-reimbursable charges. When the Medevac manager is absent,
the nurses divide their time among patient care and Medevac or billing questions.

Recommendation 42: The Office of Medical Services should authorize and fund a second, part-
time Medevac position at Embassy Pretoria. (Action: M/MED)

        Embassy Pretoria is located in an Afrikaans-speaking enclave, and most of the medical
personnel with whom the health unit does business are Afrikaans speakers. The relationships that
the local medical staff have developed and maintained over the years are invaluable in securing
last minute appointments with overbooked specialists and getting the immediate attention that
Medevac and embassy patients need. It is important, therefore, to recruit and retain bilingual health
unit staff. This desire for Afrikaans speakers creates inevitable tension between the embassy’s
desire to provide employment to family members and the health unit’s need to ensure access to the
best available local medical professionals.

        When the previous administrative assistant moved to the Medevac manager position
approximately two years ago, the human resources section changed the health unit’s administrative
assistant position from a locally hired position to an eligible family member position. In response,
the health unit circumscribed the administrative assistant’s responsibilities, because of the time it
takes to train someone in billing and because it is more effective to make many of the Medevac
arrangements in Afrikaans. This reduction in the administrative assistant’s role put even more
pressure on the Medevac manager.

       Informal Recommendation 36: Embassy Pretoria should return the health unit
       administrative assistant job to a locally employed staff position upon the departure of the
       incumbent.

Schools

       Parents are very satisfied with the (b)(5)(b)(6)                                     , which
is where most officers assigned to Pretoria and Johannesburg send their children. (b)(5)(b)(6)




                                           50
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         While most mission children attend the (b)(5)(b)(6)        a few attend other schools
(b)(5)(b)(6)                    Parents assigned to Consulate General Cape Town send their
children to the (b)(5)(b)(6)

        The only school that receives educational and soft target grants is the (b)(5)(b)(6)
                                       The educational grant was $60,000 in 2010, and the soft
target grant totaled $67,000. A 10-member school board directs school activities; nine members
are selected from among school association members, and the Ambassador selects one member.
Association membership is automatic for parents or guardians of children enrolled in the school.
The curriculum meets both U.S. college preparatory public schools and the International
Baccalaureate Diploma program requirements. The Middle States Association of Colleges and
Schools accredits the school.


Management Controls
        Embassy Pretoria’s August 2010 statement of assurance of management controls cites three
material weaknesses. The first is the lack of secure office space. The corrective action plan
indicated that the Department would add two floors to a USAID annex on its secure compound, a
project that is currently in the planning stage. The expectation was that this new space would be
available for occupancy by mid 2013. OBO identified $18 million to pay for the two additional
floors. However, the contract had not been awarded at the time of this inspection, and there are
concerns at USAID that the nearly $40 million allocated for the annex may be rescinded due to
budget cuts. The weakness continues.

       The second material weakness was identified as staffing shortages in a few embassy
sections. The OIG team concluded that this condition does not meet the definition of material
weakness.

        The third weakness was the non-payment of taxes by local staff. Local staff should have
been making tax allotments directly to the South African Revenue Service; however, many of them
had not done so, in part because some local tax authorities were also confused about the
requirement for tax payments. As noted earlier in this report, the Department has given the
embassy permission to start a payroll allotment plan, to allow local staff to pay current and back
taxes. With the help of the Charleston Financial Center, the embassy is working with local tax
authorities to implement the payroll deduction scheme.

Consular Cash Collections

        The consular cashiers in Cape Town, Durban, and Johannesburg do not always follow
regulations regarding end-of-day procedures for the deposit of consular receipts with the Class B
cashier (7 FAH 770). The process for taking the day’s receipts to the Class B cashier and getting
three OF-158 receipts for fees paid in dollars, South African rand, and by credit card works well –
except when the Class B cashier is absent. For different reasons at each consulate, the back-up
consulate cashiers cannot prepare OF-158s. Hence, consular cashiers either obtain hand written
receipts in the interim or hold fee collections in the consular section until the Class B cashier

                                          51
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

returns. Either scenario fails to comply with regulations (7 FAH-1 H-771.2-5 f). The financial
management section of this report recommends fully training back-up cashiers so they can perform
all the necessary procedures in the Class B cashier’s absence.

Advances for Representation

        The embassy uses purchase orders for large, expensive representation costs. In some cases,
however, senior officials have requested and received funding in advance for representational
events. However, advances to individuals are not authorized for representational events. Funds for
representational events should be reimbursed or paid for with purchase orders. (31 U.S.C. 3324
Advances).

           Informal Recommendation 37: Embassy Pretoria should explain the requirements for
           reimbursement for representational events to senior staff and process no advances for
           representation expenses.

Separation of Duties

        Consulate General Durban is recruiting for a general services assistant to serve as the
procurement agent, property manager, and back-up alternate class B cashier. In this small
consulate, each employee is responsible for multiple functions and provides back-up for others.
Regulations (14 FAM 411.2 d.) direct that one person cannot control all aspects of a transaction
that involves the receipt, storage, or disposition of expendable or nonexpendable personal property.
Duties to be separated are procurement, receiving, payment, property record keeping, and
conducting an annual physical inventory.

Recommendation 43: Embassy Pretoria should require Consulate General Durban to reorganize
the general services office, to separate the duties for procurement, property management and
cashiering. (Action: Embassy Pretoria)

Recommendation 44: Embassy Pretoria should cease the hiring process for the general service
and cashiering assistant, revise the position description to meet internal controls requirements, and
readvertise the vacancy. (Action: Embassy Pretoria)

        The OIG team’s physical spot check in Embassy Pretoria’s warehouse identified misplaced
stock and items that were not in the inventory. Warehouse employees are returning household
goods to the warehouse without thoroughly checking for inventory identification and updating the
inventory records. When the OIG team identified this issue, the assistant general services officer
immediately revised return procedures for household goods and emphasized that staff must record
all items in inventory before they pass out of the receiving cage. Although the embassy has a
recently completed inventory, this problem indicates that the embassy may not have captured the
misplaced property during the inventory process.

           Informal Recommendation 38: Embassy Pretoria should review the procedures used
           in the annual physical inventory to reconcile the actual location of property with the
           recorded location.

                                           52
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

        Consulate General Cape Town could not reconcile missing property identified in its annual
inventory with records maintained in the consulate. Embassy Pretoria and the consulates have a
division of responsibilities for property management; in particular, Embassy Pretoria disposes of
all property for the consulates general, and keeps all of the property disposal records in Pretoria,
sending no copies to the consulates general. The accountable property officers at each of the
consulates are responsible for maintaining all required property records, and must have them
available in order to complete reconciliation and certification reports.

Recommendation 45: Embassy Pretoria should provide all the consulates general’s accountable
property officers with copies or electronic access to all required property records. (Action:
Embassy Pretoria)

        The mission uses a vehicle fleet management system that is managed by a South African
bank. The monthly reports provide data related to financial transactions; for example, recording
odometer readings when a vehicle is fueled, and tracking the condition of vehicles based on repairs
and service. The reports do not include information on destination and passengers, so the mission
relies on standard daily trip forms and eServices requests for this information. Not all drivers are
consistently completing the trip forms, and the motor pool managers are not summarizing or
compiling the records in a manner that allows for oversight.

Recommendation 46: Embassy Pretoria should implement procedures to maintain complete trip
records in a system that includes information on all official vehicles in the embassy’s and
consulates’ control. (Action: Embassy Pretoria)

        The motor vehicle accountable officer is not collecting all required information from the
consulates. The accountable officer relies primarily on the monthly fleet management financial
reports. The motor pool supervisors are responsible for reconciling these reports, but consulate
supervisors have received no training on this process. The accountable officer does not ask the
consulates to provide other required reports, in order to oversee the actual use and condition of the
vehicles. The motor vehicle accountable officer in Embassy Pretoria is an assistant general
services officer, and he does not have the necessary authority to provide country-wide oversight of
Department and ICASS official vehicle policy and use.

Recommendation 47: Embassy Pretoria should designate a motor vehicle accountable officer who
has the authority to provide mission-wide oversight of the official vehicles program. (Action:
Embassy Pretoria)

       Other management controls weaknesses in the consulates are slowly being resolved, as
supervisors reorganize staff and revise processes, but problems remain. For example, Consulate
General Johannesburg is preparing receiving reports for property delivered as far back as May
2010 which was either not entered into the inventory or was not properly received and invoices
submitted to Embassy Pretoria for payment. Embassy Pretoria does not provide the leadership or
oversight that could identify management controls weaknesses in the consulates.

Recommendation 48: Embassy Pretoria should review management controls for the consulates
and implement a system that provides oversight at both the embassy and consulate level. (Action:
Embassy Pretoria)
                                           53
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Pretoria should update the mission’s first and second tour
program to include guidance for supervisors, more opportunities for first and second tour
experiences outside of normal work requirements, a checklist to ensure the participation of each
first and second tour employee in the opportunities, and greater oversight of mentoring efforts.
(Action: Embassy Pretoria)

Recommendation 2: Embassy Pretoria should establish a Partnership Framework
Implementation Plan committee, chaired by the Ambassador; articulate a common vision among
the President’s Emergency Plan for AIDS Relief agencies; issue and enforce clear guidelines on
how to implement that vision; and oversee subsequent negotiations with the South African
Government. (Action: Embassy Pretoria)

Recommendation 3: Embassy Pretoria should require South Africa’s coordinator for the
President’s Emergency Plan for AIDS relief and representatives of the United States Agency for
International Development and the Centers for Disease Control and Prevention to prepare a joint
report for the Ambassador, identifying duplications in staffing and overlaps in programming
between the two agencies, outlining concrete steps to eliminate these inefficiencies, and indicating
cost savings that could be achieved by doing so. A member of the Ambassador’s staff should
participate in meetings related to this endeavor. (Action: Embassy Pretoria)

Recommendation 4: Embassy Pretoria should thoroughly review all major United States
Agency for International Development and the Centers for Disease Control and Prevention funding
decisions, to identify and eliminate any redundancy, and to determine that the decisions are
consistent with President’s Emergency Plan for AIDS Relief’s transition goals. (Action: Embassy
Pretoria)

Recommendation 5: Embassy Pretoria should require the President’s Emergency Plan for AIDS
Relief office to submit written reports to the Ambassador, outlining each agency’s methods for
uncovering waste and fraud among their prime partners and assessing whether these methods are
sufficient. (Action: Embassy Pretoria)

Recommendation 6: Embassy Pretoria should request, and the Office of the Director General
should approve, the elimination of Foreign Service office management position 10109002 in the
political section, and it should assign Foreign Service office management position 20160001 in the
economic section additional duties supporting the political section. (Action: Embassy Pretoria, in
coordination with DGHR)

Recommendation 7: Embassy Pretoria should move appropriate press and media staff from
Embassy Pretoria to Consulate General Johannesburg. (Action: Embassy Pretoria)

Recommendation 8: The Bureau of Educational and Cultural Affairs should review and, if
necessary, revise the work goals of the regional educational advising coordinator, share those with
public affairs officers in the region, and solicit regular feedback from them on how well the
requirements are being met. (Action ECA)


                                          54
                              SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

Recommendation 9: Embassy Pretoria, in coordination with the Bureau of Consular Affairs,
should abolish the consular associate position upon the departure of the incumbent and make
alternative arrangements for the provision of notarial and passport services for embassy
employees. (Action: Embassy Pretoria, in coordination with CA)

Recommendation 10: The Bureau of Consular Affairs, in coordination with Embassy Pretoria,
should abolish the Durban professional adjudication specialist position upon the departure of the
incumbent. (Action: CA, in coordination with Embassy Pretoria)

Recommendation 11: Embassy Pretoria, upon the first resignation or retirement of a visa clerk
in the Cape Town consular section, should abolish one visa clerk position and reassign
responsibilities accordingly. (Action: Embassy Pretoria)

Recommendation 12: Embassy Pretoria should analyze long-term consular section goals and
objectives at Consulates General Johannesburg and Cape Town, review and update all of the
consular position descriptions in light of that analysis, and submit revised position descriptions for
Computer Assisted Job Evaluation reviews, as appropriate. (Action: Embassy Pretoria)

Recommendation 13: Embassy Pretoria should reduce the number of its panel physicians to one
in Johannesburg and one in Cape Town. (Action: Embassy Pretoria)

Recommendation 14: Embassy Pretoria should establish a process and a timeline for reviewing
and shipping the Category I holdings at all three consulates general to the Kentucky Consular
Center. (Action: Embassy Pretoria)

Recommendation 15: Embassy Pretoria should relocate the Consulate Cape Town assistant
regional security officer for investigations to the vice consul’s office, until the consulate general
can construct an enclosed work space for the incumbent of that position. (Action: Embassy
Pretoria)

Recommendation 16: Embassy Pretoria should design and construct an enclosure for Consulate
General Johannesburg’s assistant regional security officer for investigations. (Action: Embassy
Pretoria)

Recommendation 17: Embassy Pretoria should set up a working group, chaired by the deputy
chief of mission, to conduct a thorough staffing review, reducing unnecessary positions and
avoiding duplication of effort. (Action: Embassy Pretoria)

Recommendation 18: Embassy Pretoria should conduct a comprehensive analysis to determine
whether any offices currently located in Pretoria could be transferred to underutilized space at
Consulate General Cape Town or Consulate General Johannesburg. (Action: Embassy Pretoria)

Recommendation 19: Embassy Pretoria should do a cost benefit analysis to determine whether
the change of Johannesburg from a consulate to an embassy annex is warranted. (Action: Embassy
Pretoria)




                                            55
                                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Recommendation 20: The Bureau of African Affairs, in coordination with Embassy Pretoria
should significantly downsize or close Consulate General Durban. (Action: AF, in coordination
with Embassy Pretoria)

Recommendation 21: Embassy Pretoria should review all procedures for handling invoices and
vendor payments for the Department and other agencies, determine where the delays in the process
are occurring, and take steps to fix the process. The embassy should send out a reminder to all
agency heads that late vendor payments accrue interest and that timely payments are essential.
(Action: Embassy Pretoria)

Recommendation 22: Embassy Pretoria should develop and implement procedures to track the
completion of the required work and development plans and the timely completion of interim
counseling sessions on performance. (Action: Embassy Pretoria)

Recommendation 23: Embassy Pretoria, in coordination with the Bureau of Overseas Building
Operations, should determine which executive-level residences in Cape Town should be sold and
which should be maintained. (Action: Embassy Pretoria, in coordination with OBO)

Recommendation 24: Embassy Pretoria should implement procedures to document all business
class travel, including upgraded travel when lower fare tickets are not available and when the
traveler pays for the upgrade. (Action: Embassy Pretoria)

Recommendation 25: Embassy Pretoria should revise the approval structure for business class
travel so that the designated approving official is not subordinate to the traveler. (Action: Embassy
Pretoria)

Recommendation 26: Embassy Pretoria should revise the guidebook for official visits to include
the proven practices and updated information. (Action: Embassy Pretoria)

Recommendation 27: Embassy Pretoria should conduct a new annual inventory in Consulate
General Durban, providing assistance throughout the entire process. (Action: Embassy Pretoria)

Recommendation 28: Embassy Pretoria should require that all subscribers to the International
Cooperative Administrative Support Services housing pool also subscribe to the International
Cooperative Administrative Support Services furniture and appliance pool. (Action: Embassy
Pretoria)

Recommendation 29: Embassy Pretoria should review the expendables stock inventory and
increase the stock to a level that eliminates the need for heavy reliance on separate purchases for
requested supplies. (Action: Embassy Pretoria)

Recommendation 30: Embassy Pretoria should revise the position descriptions for the trades
helpers in Consulate General Johannesburg to reflect their new responsibilities in managing
nonexpendable and expendable property. (Action: Embassy Pretoria)

Recommendation 31: Embassy Pretoria should eliminate the maintenance foreman position and
improve work flow and communication among maintenance technicians, residential coordinators,
and work order clerks. (Action: Embassy Pretoria)

                                           56
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Recommendation 32: Embassy Pretoria should establish regular facilities management meetings
that include maintenance technicians. (Action: Embassy Pretoria)

Recommendation 33: The Office of Overseas Buildings Operations, in coordination with
Embassy Pretoria, should provide training to local employees in Johannesburg and Cape Town, so
they can reprogram the building automation systems for maximum efficiency and maintain those
systems. (Action: OBO, in coordination with Embassy Pretoria)

Recommendation 34: Embassy Pretoria should request, and the Bureau of Overseas Buildings
Operations should approve, additional resources to renovate U.S. Government-owned housing up
to the standards of leased housing. (Action: Embassy Pretoria, in coordination with OBO)

Recommendation 35: Embassy Pretoria should designate the information management officer
as the reviewing official for information program officers at the consulates general. (Action:
Embassy Pretoria)

Recommendation 36: The Bureau of Information Resource Management should reinstate
Embassy Pretoria on the foreign post telephone refresh list. (Action: IRM)

Recommendation 37:       (b) (5)

Recommendation 38:       (b) (5)

Recommendation 39: Information Resource Management, in coordination with the Diplomatic
Telecommunication Service Program Office, should provide an alternate route for communications
at Consulate General Cape Town. (Action: IRM, in coordination with DTSPO)

Recommendation 40: Embassy Pretoria should require information systems security officers at
the consulates to perform the information systems security officer duties, providing assistance as
necessary. (Action: Embassy Pretoria)

Recommendation 41: Embassy Pretoria should develop clear and accessible guidance on the
processes available to employees for reporting complaints and grievances in a confidential manner,
and it should provide training to supervisors and any others identified as employee confidantes.
(Action: Embassy Pretoria)

Recommendation 42: The Office of Medical Services should authorize and fund a second, part-
time Medevac position at Embassy Pretoria. (Action: M/MED)

Recommendation 43: Embassy Pretoria should require Consulate General Durban to reorganize
the general services office, to separate the duties for procurement, property management and
cashiering. (Action: Embassy Pretoria)

Recommendation 44: Embassy Pretoria should cease the hiring process for the general service
and cashiering assistant, revise the position description to meet internal controls requirements, and
readvertise the vacancy. (Action: Embassy Pretoria)

                                           57
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 45: Embassy Pretoria should provide all the consulates general’s accountable
property officers with copies or electronic access to all required property records. (Action:
Embassy Pretoria)

Recommendation 46: Embassy Pretoria should implement procedures to maintain complete trip
records in a system that includes information on all official vehicles in the embassy’s and
consulates’ control. (Action: Embassy Pretoria)

Recommendation 47: Embassy Pretoria should designate a motor vehicle accountable officer
who has the authority to provide mission-wide oversight of the official vehicles program. (Action:
Embassy Pretoria)

Recommendation 48: Embassy Pretoria should review management controls for the consulates
and implement a system that provides oversight at both the embassy and consulate level. (Action:
Embassy Pretoria)




                                          58
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Informal Recommendations
       Informal recommendations cover operational matters not requiring action by organizations
outside the inspected unit and/or the parent regional bureau. Informal recommendations will not
be subject to the OIG compliance process. However, any subsequent OIG inspection or on-site
compliance review will assess the mission’s progress in implementing the informal
recommendations.

Informal Recommendation 1: Embassy Pretoria should issue written guidelines for internal
travel in order to eliminate unnecessary travel among mission offices.

Informal Recommendation 2: Embassy Pretoria should establish a law enforcement working
group that focuses on operational issues and is chaired by the deputy chief of mission.

Informal Recommendation 3: Embassy Pretoria should issue written guidance outlining the
executive office’s standards for balanced reporting.

Informal Recommendation 4: Embassy Pretoria, in coordination with the Bureau of Public
Affairs and the Bureau of African Affairs, should do a cost-benefit analysis to determine whether
the Africa Media Hub should move to Johannesburg.

Informal Recommendation 5: Embassy Pretoria should reduce the public operating hours of
information resource centers at the embassy and the three constituent posts to allow IRC staff to
expand programming at satellite centers and pursue new and more productive opportunities
elsewhere.

Informal Recommendation 6: Embassy Pretoria should prepare a plan to expand the work hours
of educational advisers, so that it is ready to implement such an expansion when the budget allows.

Informal Recommendation 7: Embassy Pretoria should review job descriptions and selection
criteria for new educational advisers and provide them the necessary training.

Informal Recommendation 8: Embassy Pretoria should arrange for formal grants training for all
public diplomacy officers and staff who are involved in signing or monitoring grants.

Informal Recommendation 9: Embassy Pretoria should require public affairs officers and staff
at the consulates general to maintain all documentation supporting the terms and conditions of
grants signed at the consulates.

Informal Recommendation 10: Embassy Pretoria should schedule visa appointments for
Consulate General Cape Town in 15- or 30-minute increments to prevent waiting room
overcrowding.

Informal Recommendation 11: Embassy Pretoria should schedule afternoon appointments, as
needed, at Consulate General Cape Town and should accept walk-in requests for service, when
practical.


                                          59
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 12: Embassy Pretoria should schedule the afternoon consular
appointments at Consulate General Johannesburg so that the cashier can close at 3:30 p.m. and
submit consular fees to the Class B cashier by 4:00 p.m.

Informal Recommendation 13: Embassy Pretoria should standardize the letters given to visa
applicants whose passports have been confiscated and returned to the Department of Home
Affairs, and should maintain a database of all such cases.

Informal Recommendation 14: Embassy Pretoria should establish a mechanism for obtaining
timely feedback from the Department of Home Affairs regarding the disposition of suspect
citizenship and residence documents.

Informal Recommendation 15: Embassy Pretoria should develop a mission-wide strategic plan
for the provision of management services that identifies the most significant challenges and
potential solutions.

Informal Recommendation 16: Embassy Pretoria should develop and implement an action plan
for working closely with the relevant U.S. agencies, to help them set more realistic housing
expectations for new employees.

Informal Recommendation 17: Embassy Pretoria should instruct the Consulate General Cape
Town management officer to certify vouchers at least once each week.

Informal Recommendation 18: Embassy Pretoria should instruct Consulate General Cape Town
to sell unneeded coins to the bank.

Informal Recommendation 19: Embassy Pretoria should require the consulates general to train
designated back-up cashiers and should schedule training for back-up cashiers and a new Class B
cashier as soon as the hiring process is completed.

Informal Recommendation 20: Embassy Pretoria should require all of the consulates general to
designate back-up certifying officers.

Informal Recommendation 21: Embassy Pretoria, after implementing the new tax withholding
system, should arrange for the senior human resources officer to meet with each of the locally
employed staff committees to assess how well the process is working and whether employees need
further guidance.

Informal Recommendation 22: Embassy Pretoria should make lease payments, after the first
year, on a quarterly basis.

Informal Recommendation 23: Embassy Pretoria should determine whether consulate generals’
houses in Durban and Johannesburg are needed, and sell them if they are no longer required.

Informal Recommendation 24: Embassy Pretoria should revise the motor pool policy to reflect
country-wide requirements, and should clarify the other authorized use policy.

Informal Recommendation 25: Embassy Pretoria should conduct a utilization survey that
includes vehicle use for the International Cooperative Administrative Support Services motor pool
                                                 60
                                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

and United States Agency for International Development, to predict the demand on the
consolidated motor pool and evaluate the cost of continuing to use contracted services for
transportation beyond what the combined motor pool will be able to provide.

Informal Recommendation 26: Embassy Pretoria should evaluate the administrative workload
for the Consulate General Johannesburg motor pool and assign duties accordingly.

Informal Recommendation 27: Embassy Pretoria should revise the job descriptions for the two
senior positions in the Johannesburg facilities management office to eliminate overlap or confusion
of responsibilities.

Informal Recommendation 28: Embassy Pretoria should establish a diplomatic post office.

Informal Recommendation 29: Embassy Pretoria should install in Consulate General Durban’s
information systems center an electrical power panel with individual circuit breakers for the
outlets.

Informal Recommendation 30: Embassy Pretoria should install a temperature sensing device
that notifies personnel in case of overheating in Consulate General Johannesburg’s information
systems center.

Informal Recommendation 31: Embassy Pretoria should provide water to the mail handling
facility at Consulate General Johannesburg.

Informal Recommendation 32: Embassy Pretoria should provide account logons for the
dedicated Internet network at Consulate General Johannesburg.

Informal Recommendation 33: Embassy Pretoria should require the community liaison office
coordinators to standardize newcomer, sponsor, and orientation materials to the extent practicable.

Informal Recommendation 34: Embassy Pretoria should initiate monthly digital video
conferences for the community liaison coordinators, so that they can share strategies, lessons
learned, and best practices.

Informal Recommendation 35: Embassy Pretoria should review and rationalize the frequency of
the publication of the embassy and consulate general newsletters, and should reassign newsletter
editor hours, if appropriate.

Informal Recommendation 36: Embassy Pretoria should return the health unit administrative
assistant job to a locally employed staff position upon the departure of the incumbent.

Informal Recommendation 37: Embassy Pretoria should explain the requirements for
reimbursement for representational events to senior staff and process no advances for
representation expenses.

Informal Recommendation 38: Embassy Pretoria should review the procedures used in the
annual physical inventory to reconcile the actual location of property with the recorded location.


                                           61
                               SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




Principal Officials
                                                         Name      Arrival Date
Embassy Pretoria
Ambassador                                      Donald H. Gips         08/2009
Deputy Chief of Mission                         Helen La Lime          09/2008
Chiefs of Sections:
  Administrative                                John D. Lavelle        07/2009
  Political                                Walter N.S. Pflaumer        08/2006
  Economic                                         Terri L. Robl       08/2009
  Public Affairs                                     Karl Stoltz       08/2010
  Regional Security                               Daniel Weber         10/2010

Consulate General Cape Town
Consul General                                 Alberta Mayberry        09/2008
Chiefs of Sections:
   Administrative                              Marcia Oshinaike        08/2008
   Consular                                       Claudia Baker        09/2010
   Political                                Brooke de Montluzin        09/2008
   Economic                                   William Lehmberg         07/2010
   Public Affairs                                   Nathan Holt        09/2009
Regional Security                                 Thomas Green         08/2010

Consulate Durban
Consul General                                    Jill Derderian       09/2008
Chiefs of Sections:
    Administrative                             Marguerite Macy         10/2009
    Consular                                     Lewis Carroll         09/2010
    Political/Economic                            Pierce Davis         01/2011
    Public Affairs                                   VACANT
    Regional Security                            Edward Allen          12/2008

Consulate General Johannesburg
Consul General                                     Andy Passen         09/2008
Chiefs of Sections:
    Administrative                               William Steuer        08/2008
    Labor                                         Robert Ewing         08/2008
    Consular                                        Doron Bard         08/2008
    Public Affairs                          Melissa Clegg-Tripp        07/2010
    Regional Security                               Jeffrey Dee        01/2009




                                      62
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



Other Agencies: Embassy Pretoria
  Foreign Agricultural Service                          Ross Kreamer      08/2010
  Department of Defense                               Daniel Hampton      02/2011
  U.S. Agency for International Development                 Jeff Borns    01/2010
  Health and Human Services                             Mary Fanning      01/2008
  Federal Bureau of Investigations                    Wilfred Rattigan    06/2010
  Peace Corp                                         McGrath Thomas       01/2009
  Drug Enforcement Administration                      Arthur Staples     05/2009
  Immigration and Customs Enforcement                  Abraham Lugo       08/2009
  Centers for Disease Control                        Thurma Goldman       08/2009
  Open Source Center                                  Robert Kearney      08/2008
  Animal and Plant Health Inspection Service          Thomas Shissel      06/2009
  (USDA)
  Company F                                           Matthew Boykin      06/2010
  Office of Defense Cooperation                            TC Schultz     08/2010
  Secret Service                                 Carlos Castro (Acting)

Other Agencies: Consulate General Cape Town
   U.S. Department of Defense                            Paul Johann      06/2009
   Federal Bureau of Investigation                 Anthony Velazquez      08/2007

Other Agencies: Consulate Durban
  U.S. Department of Homeland                             Fuad Hafidh     11/2007
  Security/CBP/CSI

Other Agencies: Consulate General Johannesburg
   Customs and Border Protection                        Tarance Drafts    06/2008
   US Trade and Development Agency                         Jason Nagy     12/2008
   Customs Immigration Service                            Brett Lassen    04/2008
   Foreign Commercial Service                             Larry Farris    08/2010
   International Broadcasting Bureau                     Paula Caffey     10/2002
   Transportation Security Administration                   Ron Malin     04/2010




                                        63
                            SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



Abbreviations
ARSO-I          Assistant regional security officers for investigations
BBG             Broadcasting Board of Governors
CDC             Centers for Disease Control and Prevention
CLO             Community liaison office
DCM             Deputy chief of mission
Department      U.S. Department of State
DVC             Digital video conference
EEO             Equal employment opportunity
FAST            First- and second-tour
HR              Human Resources
ICASS           International Cooperative Administrative Support Services
IM              Information management
IMO             Information management officer
IO              Information officer
IRC             Information resource centers
ISSO            Information systems security officer
IVLP            International Visitor Leadership Program
MSRP            Mission Strategic and Resource Plan
NGO             Nongovernmental organization
OBO             Bureau of Overseas Buildings Operations
PAO             Public affairs officer
PAS             Public affairs section
PEPFAR          President’s Emergency Plan for AIDS Relief
REAC            Regional educational advising coordinator
RIMC            Regional information management center
RMO             Regional medical officer
USAID           United States Agency for International Development




                            64
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219



   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality




                           1
   SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED
